<html>
<title> - PUBLIC TRANSPORTATION: A CORE CLIMATE SOLUTION</title>
<body><pre>[Senate Hearing 111-275]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-275


                     PUBLIC TRANSPORTATION: A CORE 
                            CLIMATE SOLUTION

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTE ON HOUSING, TRANSPORTATION, AND COMMUNITY DEVELOPMENT

                                 OF THE

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

    THE IMPACT OF CLEAN TRANSPORTATION INFRASTRUCTURE PROJECTS AND 
   INCENTIVIZING SENSIBLE LAND USE POLICIES AROUND THOSE PROJECTS TO 
  ADEQUATELY ADDRESS EMISSIONS REDUCTION IN THE TRANSPORTATION SECTOR

                               __________

                              JULY 7, 2009

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


Available at: http://www.access.gpo.gov/congress/senate/senate05sh.html





                  U.S. GOVERNMENT PRINTING OFFICE
54-638 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman

TIM JOHNSON, South Dakota            RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          MEL MARTINEZ, Florida
DANIEL K. AKAKA, Hawaii              BOB CORKER, Tennessee
SHERROD BROWN, Ohio                  JIM DeMINT, South Carolina
JON TESTER, Montana                  DAVID VITTER, Louisiana
HERB KOHL, Wisconsin                 MIKE JOHANNS, Nebraska
MARK R. WARNER, Virginia             KAY BAILEY HUTCHISON, Texas
JEFF MERKLEY, Oregon
MICHAEL F. BENNET, Colorado

                    Edward Silverman, Staff Director

        William D. Duhnke, Republican Staff Director and Counsel

                  Mitch Warren, Senior Policy Advisor

                       Dawn Ratliff, Chief Clerk

                      Devin Hartley, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                 ______

   Subcommittee on Housing, Transportation, and Community Development

                 ROBERT MENENDEZ, New Jersey, Chairman

                DAVID VITTER, Louisiana, Ranking Member

TIM JOHNSON, South Dakota
JACK REED, Rhode Island              KAY BAILEY HUTCHISON, Texas
CHARLES E. SCHUMER, New York         MIKE CRAPO, Idaho
DANIEL K. AKAKA, Hawaii              BOB CORKER, Tennessee
SHERROD BROWN, Ohio                  JIM DeMINT, South Carolina
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
MARK R. WARNER, Virginia
JEFF MERKLEY, Oregon

                Hal Connolly, Professional Staff Member

              Michael Passante, Professional Staff Member

                    Amit Bose, Legislative Assistant

                                  (ii)













                            C O N T E N T S

                              ----------                              

                         TUESDAY, JULY 7, 2009

                                                                   Page

Opening statement of Senator Menendez............................     1
Opening statements, comments, or prepared statements of:
    Senator Merkley..............................................     2
    Senator Dodd.................................................     3
    Senator Johnson..............................................    29
    Senator Crapo................................................    29

                               WITNESSES

Michael A. Replogle, Global Policy Director, Institute for 
  Transportation and Development Policy, and Policy and Strategy 
  Consultant, Environmental Defense Fund.........................     7
    Prepared statement...........................................    29
    Response to written questions of:
        Senator Menendez.........................................    51
Clinton J. Andrews, Professor, Urban Planning and Policy 
  Development, Bloustein School of Planning and Public Policy 
  Program, Rutgers University....................................     9
    Prepared statement...........................................    37
    Response to written questions of:
        Senator Menendez.........................................    51
Christopher Cabaldon, Mayor, City of West Sacramento, California, 
  and Transportation Vice Chair, Sacramento Area Council of 
  Governments....................................................    10
    Prepared statement...........................................    40
    Response to written questions of:
        Senator Menendez.........................................    53
Randal O'Toole, Senior Fellow, The Cato Institute................    13
    Prepared statement...........................................    43
    Response to written questions of:
        Senator Vitter...........................................    54
Ernest Tollerson, Director, Policy and Media Relations, New York 
  State Metropolitan Transportation Authority....................    15
    Prepared statement...........................................    49
    Response to written questions of:
        Senator Menendez.........................................    56

                                 (iii)

 
                     PUBLIC TRANSPORTATION: A CORE 
                            CLIMATE SOLUTION

                              ----------                              


                         TUESDAY, JULY 7, 2009

                                       U.S. Senate,
    Subcommittee on Housing, Transportation, and Community 
                                               Development,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Subcommittee convened at 9:37 a.m., in room SD-538, 
Dirksen Senate Office Building, Senator Robert Menendez, 


          OPENING STATEMENT OF SENATOR ROBERT MENENDEZ

    Senator Menendez. This hearing will now be in order. Let me 
thank you all for joining us today.
    Let me start by congratulating the House of Representatives 
on passing a cap and trade bill last month. It is quite an 
accomplishment, something I hope that we can repeat here in the 
Senate. But one thing that troubled me about the bill, however, 
was that it fails to chart a course toward lowering emissions 
in the transportation sector. It has the right targets, but we 
need the right transportation policies to get there.
    The Environment and Public Works Committee is holding a 
hearing this morning about that Waxman-Markey bill and I think 
the witness list is telling. They have a witness from the EPA, 
the Department of Energy, the USDA, the Department of the 
Interior, but there is no witness for the Department of 
Transportation. Transportation accounts for nearly one-third of 
our emissions and yet it does not appear to be on Congress's 
radar screen as one-third of the solution.
    My message in calling this hearing should be crystal clear. 
If we do not provide substantial resources in the Senate's 
comprehensive climate bill to fund clean transportation 
infrastructure projects and incentivize sensible land use 
policies around those projects, then we will fail to adequately 
address emissions reduction in the transportation sector.
    There is a perception swirling around Washington that we 
have already done what we can on transportation. After all, 
Congress and President Obama are raising fuel efficiency 
standards and we are providing important funding and incentives 
for plug-in hybrids, electric vehicles, and advanced biofuels, 
so doesn't that solve the problem. The answer, to put it 
bluntly, in my view, is no. Pursuing strategies to increase 
fuel efficiency and cleaning our fuel mix alone will result in 
failure. We will fail to achieve energy security in the next 50 
years and we will fail to lower carbon emissions in the 
transportation sector.
    Now, why? Well, because the carbon and petroleum savings 
from these strategies are projected to be completely wiped out 
by increases in vehicle miles traveled. A recent study projects 
that even with improvements in fuel efficiency and low-carbon 
fuels, increased driving will lead to a 34 percent increase in 
transportation carbon emissions in 2030 from the 1990 levels.
    This begs the question: How do we get people out of their 
cars, or at least give them shorter trips to make in their 
cars? And the answer is transit coupled with sensible transit-
oriented development policies.
    I know firsthand from New Jersey's experience with the 
Hudson-Bergen Light Rail Project and its Transit Villages 
Program that if you build the right transit project in the 
right place and couple it with the right incentives, you can 
completely change development patterns and in turn create more 
livable communities. But this will not magically happen on its 
own. We need to finally provide the Federal Transit 
Administration with the resources it needs to meet local 
demand.
    Right now, there are over $400 billion worth of transit 
projects on the drawing board just waiting for funding. We are 
only allowing the FTA to spend roughly $1.5 billion per year. 
We need to make sure this climate bill provides resources so we 
can truly give people alternatives to hopping in their cars.
    We also need to provide resources to local and regional 
planners so that they can incentivize more compact development 
around transit hubs. This creates more sustainable communities 
where people can walk to the store or take a short trip to the 
movies.
    Together, this substantial investment in transit coupled 
with transit-oriented development will lower vehicle miles 
traveled and give us the ability to truly succeed in lowering 
emissions in the transportation sector.
    Let me recognize other colleagues before we start to the 
witnesses, if they wish to do so. Senator Merkley?

               STATEMENT OF SENATOR JEFF MERKLEY

    Senator Merkley. Thank you very much, Mr. Chair, for 
convening the hearing, and thank you to our witnesses. This is 
a very important hearing and it couldn't be more timely. 
Unfortunately, I will be running to Environment and Public 
Works in a few minutes and I apologize to all of you that we 
are double- and triple-booked during this busy time.
    I think that it is so important to be diving into this 
issue. The title of the hearing is correct. Public transit is a 
core climate solution, but it is also a core energy solution. 
Two-thirds of our oil is consumed in transportation. We can't 
address our dependence on foreign oil without reducing oil 
consumption in the transportation sector. And it is an 
important solution for our economy. Public transportation 
creates 19 percent more jobs per dollar invested than road 
projects do.
    In Oregon, we have learned by experience that giving 
Americans better transportation options and planning 
communities that make it easier to use public transportation 
can play a big role in reducing oil dependence and global 
warming pollution. I think Portland is sometimes looked at as a 
model, and by critics sometimes a favorite city to attack, but 
as we review the statistics, we can't help but keep coming back 
to the fact that the 1970s plan that would have put highways 
all over the Portland metro area, yet people would just be 
sitting on those highways today if we had not built the transit 
system. In fact, more people go to the downtown now by transit 
than go by car.
    We have had a 44 percent increase since 1998 in transit 
ridership and we start to see significant savings, $1.5 billion 
annually on fuel, an enormous factor in an economy the size of 
Portland, a reduction in vehicle miles traveled per capita, 
while the same figure has been growing substantially 
nationally.
    The Texas Transportation Institute estimates Portland has 
20 percent less congestion than it would otherwise. Total 
carbon emissions in Portland are below the 1990 levels. And so 
on and so forth.
    So I look forward to reports on the hearing and working 
with the Chair and others to maximize the role public transit 
can play in addressing our energy and climate challenges. My 
home State is now producing the first streetcars that have been 
built in America in more than a generation and we are excited 
that many cities are in talks about the possibility of 
expanding streetcars as an important part of the urban 
landscape that will improve both the shape of the city, the 
quality of the inner core, but also allow us to shift to 
electricity and then generate that electricity from renewable 
resources. It could have a huge impact on carbon dioxide 
production and the ability of people to get in a timely manner 
to and from work and around the city for other activities. 
Thank you.
    Senator Menendez. Thank you, Senator Merkley.
    We recognize the distinguished Chairman of the full 
Committee, Senator Dodd.

           STATEMENT OF CHAIRMAN CHRISTOPHER J. DODD

    Chairman Dodd. Thank you very, very much, and let me thank 
all of our witnesses this morning for being here and those in 
the audience who follow these issues as carefully as you do. 
Let me particularly thank Senator Menendez for holding this 
hearing and chairing the hearing this morning.
    I am going to be leaving briefly. We are still in the mark-
up of the health care proposal. We are not quite done with that 
yet, and with Senator Kennedy's absence, I have been asked to 
fill in for him in that role. We have had 9 days of mark-ups 
and we are back at it again this week, so I apologize for not 
being able to stay as long as I would like, but you are in good 
hands with Bob Menendez, who knows an awful lot about this 
issue and cares deeply about it. I was impressed with Senator 
Merkley's comments, as well, about his State and what they are 
doing in Oregon, as well.
    Just to share a few thoughts with you, the choices we make 
when it comes to transportation have an enormous impact on our 
economy, our communities, and our planet, as is obvious to more 
and more people. Currently, the transportation sector is 
responsible for nearly a third of all carbon emissions, 
something I know that our witnesses here will talk about this 
morning, and is the fastest growing source of greenhouse gas 
emissions. Automobile transportation alone accounts for nearly 
half of the typical two-car family's carbon footprint, by far 
the largest source of household emissions.
    Public transportation, in addition to creating economic 
opportunity, reducing congestion, and bringing our communities 
closer together, is incredibly effective in reducing carbon 
emissions. Already, public transit and the land use it makes 
possible combine to save more than four billion gallons of 
gasoline each year, reducing our greenhouse gas output by 37 
million metric tons.
    Americans understand the dangers of climate change and many 
families have taken steps to reduce their own carbon footprint. 
When it comes to transportation, too often, the choices we make 
are directed by choices that we have, and for far too many 
families, including in my home State of Connecticut and across 
the country, public transportation isn't an option as of yet.
    Later this month, the Environment and Public Works 
Committee will take up legislation that seeks to address the 
climate crisis. We have heard that debate already. It has been 
ongoing in the other body, the House of Representatives. 
Already, we have begun to make progress by requiring vehicles 
to become more fuel efficient and encouraging the development 
of cleaner energy sources. But the Environmental Protection 
Agency Administrator, Lisa Jackson, told this Committee only a 
few weeks ago, and I quote her, she said:

        More efficient vehicles and cleaner fuels simply will not be 
        enough to meet our greenhouse gas reduction and energy 
        independence goals. Reducing the number of miles we drive must 
        be a part of the solution.

End of quote.
    I happen to believe she is right. In a typical household, 
one driver switching to public transportation, we are told, 
could reduce the family's annual carbon footprint by 8 percent. 
And as Administrator Jackson added, there is no need to wait 
for technological breakthroughs in this area to reduce the 
amount of driving we do. Technology to help people drive less 
exists today. It is called smart growth.
    Investing in public transportation as part of a focus on 
sustainable development isn't just part of the solution to the 
climate crisis. It cuts down on traffic congestion, and being 
from a small State like Connecticut with a lot of congestion, I 
know a little bit about traffic congestion, as does my 
colleague from New Jersey. We hear about it and have heard 
about it for years.
    Public transportation saves families money and time, as 
well. When we combine it with smart land use policy, we can 
better protect our farmlands and green spaces, and when we 
combine it with a commitment to build more housing near job 
centers, we can better connect people with good jobs and 
economic stability.
    For instance, in my State, Connecticut is in serious need 
of more and better transit options. I have long been an 
advocate of the so-called Tri-City Corridor between New Haven 
and Springfield, Massachusetts, that will create new transit 
villages, get people off our roads, and revitalize our regional 
economy. We will accomplish this by initiating new commuter 
rail service and 110-mile-per-hour intercity train service 
between New Haven and Springfield, with direct connections to 
New York City and eventually Boston. This project is one of my 
to priorities and I am going to work with leaders in the State 
as well as Secretary LaHood to try and get this done.
    But we need to do more than simply fund public 
transportation. We need to rethink the way we approach it as a 
matter of Federal policy. Earlier this year, I wrote a letter 
to President Obama urging him to establish better coordination 
between Federal authorities responsible for transportation, 
housing, energy, and environmental policy. I was very excited 
to hear when the President last month--Administrator Jackson 
was joined by Secretaries LaHood and Donovan to discuss the 
administration's commitment, not just to sustainable 
development, but to a more holistic approach as these agencies 
work together to help our communities grow in a sustainable way 
in the 21st century.
    I think that kind of coordination which is now going on at 
the White House will help us really develop these kind of 
sustainable development ideas in a holistic fashion that will 
bring these respective agencies together in a way that will 
allow us to address these matters in a far more comprehensive 
way than the sort of stovepiping that we have done in the past, 
where agencies and their agendas go off without a lot of 
thought given to the others and how they all interconnect in a 
very constructive and positive way to achieve these common and 
multiple goals that we have, but are unattainable if left 
simply on their own to try to achieve. They really do depend on 
each other if you are going to bring them together in a 
comprehensive, thoughtful manner.
    With that, let me thank Bob Menendez again for doing this, 
and my apologies to the witnesses. I am deeply sorry to all of 
you, I am not going to be here to listen to your comments and 
thoughts this morning, but I am very grateful to all of you for 
your willingness to step up and deal with this.
    I have expressed my concerns about this announcement about 
an 18-month delay I know we are talking about in dealing with 
these issues. I had hoped that would not be the case, candidly, 
but there is a lot on the agenda, obviously, to deal with. But 
this is a critical issue and my hope is that we can move some 
of these ideas along without necessarily having to wait. This 
Committee doesn't have to wait for 18 months. We can begin to 
do an awful lot here in this Committee to highlight the 
interest and the concerns about these matters and be prepared 
to take advantage of the moment when it arrives to move forward 
with a more thoughtful, comprehensive, and progressive and 21st 
century ideas for transit.
    I thank all of you. Thank you, Mr. Chairman.
    Senator Menendez. Thank you, Mr. Chairman, and thank you 
for your leadership in this regard. I have been in those 
meetings with you and you have made some forceful arguments for 
a longer-term extension, a full 6-year extension--renewal, I 
should say, reauthorization--as well as your advocacy on 
transit has been fantastic, so thank you very much.
    Chairman Dodd. Thank you.
    Senator Menendez. Thanks for joining us.
    So now we would like to hear from our witnesses. Let me 
introduce you all first, and then we will start your testimony.
    Michael Replogle is the Global Policy Director at the 
Institute for Transportation and Development Policy, a New 
York-based nonprofit group he founded in 1985. As the leading 
global expert on transportation and the environment, he is a 
resource and has frequently testified before Congress and State 
legislatures on transportation policy, finance, pricing, and 
planning. Both the ITDP and the Environmental Defense Fund have 
been active in seeking practical solutions to environmental 
challenges, and we welcome you.
    Clinton Andrews is a Professor of Urban Planning and Policy 
Development at the Rutgers University, Edward J. Bloustein 
School of Planning and Public Policy in New Brunswick, New 
Jersey. His research seeks to improve both the process and the 
substance of environmental decisionmaking. Much of his recent 
work addresses the link challenges of global warming, energy 
sector reform, and improving the built environment, spanning 
transportation, settlement patterns, and buildings. Rutgers has 
launched initiatives in transportation, energy, and green 
policy, so thank you for joining us.
    Mayor Christopher Cabaldon is serving his fifth term as 
Mayor, first elected to the West Sacramento City Council in 
1996. Being mayor is a labor of love, Mayor, because I did that 
for 6 years, and I always respect those who have decided to 
become the mayor, the first line of governmental 
responsibility. Everybody knows how to get hold of the mayor. 
During his tenure as Chair of the Sacramento Area Council of 
Governments, the Metropolitan Planning Organization for the 
six-county Sacramento region, he led the region's historic 
blueprint project charting land use strategies and smart growth 
for future generations. Mayor Cabaldon is a board member and 
Chair of the Yolo County Transportation District and Capital 
Corridor Rail Service Board, where he has advocated for 
expanded transit service, so we welcome you.
    Randal O'Toole is a Cato Institute Senior Fellow working on 
urban growth, public land and transportation issues. In 
addition to pursuing research on Federal, State, and local 
planning laws and land use, he is also an expert on forestry 
practices and he has authored numerous articles and books, and 
we welcome you.
    And Mr. Ernest Tollerson is Director of Policy and Media 
Relations for the New York Metropolitan Transportation 
Authority. He joined the Authority as the MTA's Director of 
Policy and Media Relations in January of 2007. The MTA is the 
country's largest transit agency. It has put together the Blue 
Ribbon Commission on Sustainability,\1\ staffed by Mr. 
Tollerson, and the Commission completed a report on 
sustainability which the MTA is now implementing, and we thank 
you for joining us, as well.
---------------------------------------------------------------------------
    \1\ The Final Report of the Blue Ribbon Commission on 
Sustainability and the MTA is available for viewing in Committe files.
---------------------------------------------------------------------------
    With that, we will hear from all of you. I ask you to keep 
your testimony to around 5 minutes. Your full written testimony 
as you presented to the Committee will be entered into the 
record.
    With that, Mr. Replogle, let us start with you.

 STATEMENT OF MICHAEL A. REPLOGLE, GLOBAL POLICY DIRECTOR AND 
 FOUNDER, INSTITUTE FOR TRANSPORTATION AND DEVELOPMENT POLICY, 
 AND POLICY AND STRATEGY CONSULTANT, ENVIRONMENTAL DEFENSE FUND

    Mr. Replogle. Thank you very much. Good morning, Mr. 
Chairman and members of the Committee. Thank you for the chance 
to testify on behalf of ITDP and Environmental Defense Fund, 
representing 700,000 members.
    We urge you to boost funding and planning requirements for 
public transportation and other greenhouse gas-reducing 
transportation initiatives as part of the climate bill that the 
Senate is considering. The Clean-T bill proposal, S. 575, would 
appropriately set aside 10 percent of greenhouse gas auction 
revenues for this purpose, providing a valuable framework to 
help ensure progress in planning and implementing transit as a 
core climate solution.
    Curbing U.S. transportation emissions is vital to effective 
climate policy. Transportation accounts for 28 percent of U.S. 
greenhouse emissions and accounts for 47 percent of the net 
increase in greenhouse gases between 1990 and 2003. The 
contribution to global warming of the U.S. transportation 
sector is larger than any nation's entire economy, with the 
exception of China. To avert the worst impacts of global 
warming, we must substantially cut America's transportation 
greenhouse gases.
    We strongly support a national cap on greenhouse gases as a 
cost-effective framework for climate action. But in 
transportation, complementary policies are needed to boost 
vehicle efficiency, reduce carbon fuel intensity, improve 
system operations, and damp the growth of vehicle miles 
traveled.
    While Congress and the administration have recently taken 
action to require more fuel-efficient vehicles and encourage 
lower-carbon fuel, this leaves unaddressed key opportunities 
for highly cost-effective reductions in transportation 
greenhouse gases through smart transportation investment and 
system management.
    Transportation greenhouse gas growth stems mainly from 
increased vehicle use, which will again double by 2030, barring 
changes in policy. This threatens to counter the greenhouse gas 
benefits of new CAFE standards and fuel requirements. Effective 
climate protection requires Federal action to expand efficient 
transportation options with requirements that transportation 
plans and programs achieve climate protection goals, with 
funding tied to performance.
    Personal vehicle travel is among the least efficient of 
passenger modes and makes up 62 percent of transportation 
greenhouse gases. Policies to expand and improve transit, rail, 
walking, biking, and ride sharing are crucial to achieving 
transportation-related greenhouse gas emissions. If U.S. 
transit use tripled by 2020, annual transportation greenhouse 
gas emissions would fall by 142 million metric tons, an 8-
percent drop.
    The potential for transit to cut greenhouse gases can be 
multiplied four times or more when integrated with the 
effective development patterns of livable communities, which 
expand travel options and allow families to live closer to 
their daily needs. This cuts emissions by shortening or 
eliminating motor vehicle trips.
    The 2008 Growing Cooler study found that best practice 
transportation and livable community policies together can 
reduce transportation greenhouse gases up to 38 percent. Such 
investments also create more middle-class jobs per dollar of 
spending than expanding roads and cut consumer transportation, 
health costs, and infrastructure costs.
    A new report by the Center for Clean Air Policy showed how 
investing in greenhouse gas reductions through transportation 
and livable communities strategies can reduce the cost of 
meeting greenhouse gas reduction goals, yielding net negative 
costs per ton. But in order to value these, we need to 
recognize the co-benefits that transportation investments 
produce in reducing health costs, reducing vehicle operating 
costs, and the like.
    A recent EDF report shows how urban, suburban, exurban, and 
rural communities are investing in innovative cost-effective 
transit to boost mobility and cut emissions using streetcars, 
vanpools, and bus rapid transit. A recent study done by ITDP 
and EDF together for Mexico City showed how a bus rapid transit 
system there that is being developed as we speak will cut 
greenhouse gases by six million metric tons by 2012. Similar 
opportunities exist throughout the Americas, in Asia, and 
Africa.
    To conclude, if we are to ensure transit and transportation 
policies contribute their full potential to cost-effective, 
timely greenhouse gas reduction, Congress should restructure 
transportation funding programs into performance-driven system 
preservation and competitive capacity expansion programs, as 
recently recommended by the bipartisan Transportation 
Commission and Transportation For America.
    Two, Congress should lower regulatory and procedural 
barriers to expansion and improvement of transit systems, 
speeding the process of delivering and financing well-designed 
transit projects while encouraging innovation in transit system 
design and operations planning, such as bus rapid transit and 
paratransit.
    Three, Congress should ensure that transportation plans and 
programs contribute proportionally with other sectors to meet 
greenhouse gas goals by tying funding to performance, ensuring 
modal and operational alternatives that advance timely 
achievement of national goals are considered in the planning 
process, and allocating a portion of climate revenues to plan 
and implement greenhouse gas-reducing transportation plans.
    Four, Congress should support initiatives for livable 
communities, such as the partnership being formed by the Obama 
administration, as well as forthcoming legislation on this 
being promoted in this Committee.
    And finally, Congress should ensure U.S. foreign assistance 
and trade promotion programs, carbon finance incentives, and 
climate negotiation policies give attention to boosting 
greenhouse gas efficient transportation and urban development.
    Thank you.
    Senator Menendez. Thank you.
    Professor Andrews?

STATEMENT OF CLINTON J. ANDREWS, PROFESSOR, URBAN PLANNING AND 
 POLICY DEVELOPMENT PROGRAM, BLOUSTEIN SCHOOL OF PLANNING AND 
               PUBLIC POLICY, RUTGERS UNIVERSITY

    Mr. Andrews. Good morning, Chairman Menendez and Senator 
Warner and other interested parties here. Thanks for inviting 
me to testify today.
    What I want to do is make three points in the next few 
minutes. The first is that the problem of global warming is 
large enough that it requires sustained efforts on multiple 
fronts and transit is definitely one of those fronts.
    The second point I want to make is that to be cost 
effective, transit projects should be tailored to local 
conditions, settlement patterns, and unmet demands.
    And the final point that I want to make is that there are 
many additional reasons to enhance the viability of the transit 
option in the nation's transportation system beyond its 
greenhouse gas reduction benefits.
    I want to elaborate on the first two of those points a 
little bit. First, there are really three main types of 
greenhouse gas emission reduction options. The first is using 
energy much more efficiently or more frugally. The second is 
switching to low-carbon and no-carbon energy sources. And the 
third is sequestering carbon in natural sinks, such as trees 
and soil, or by means of geoengineering techniques.
    In transportation, we can achieve energy efficiency by 
increasing miles per gallon, of course, or by reducing vehicle 
miles traveled by changing settlement patterns, altering the 
structure of travel demand, such as with telecommuting, or 
shifting to other modes, including transit and biking and 
walking. None of these options can do the whole job, and hence 
there is a need for a multi-pronged approach to the problem.
    The appropriate analogy, I think, is to a portfolio of 
investments in which the Nation balances risks and returns 
overall by choosing a diverse mix of solutions with 
complementary strengths and weaknesses. For the transportation 
sector, this boils down to pursuing higher miles per gallon and 
lower carbon emissions per gallon, biofuels and electric 
vehicles, private vehicles and public transit, smarter long-
distance networks and more walkable neighborhoods.
    While it is tempting to demand a marginal analysis that 
asks what single choice is most cost effective, there really is 
no universal answer to that question that applies nationwide 
and for all time. So it is appropriate to delegate some--not 
all, but some of these decisions to the States and the MPOs and 
to the marketplace.
    States and MPOs in particular can play key roles in 
decarbonizing the U.S. transportation sector by developing 
locally appropriate portfolios of solutions. It is only in the 
context of specific timeframes, settlement patterns, 
transportation networks, and natural resource endowments that 
one can identify which solutions are the most cost effective.
    In the short run, local and regional transportation 
planners must work with the settlement patterns they have. 
Empty buses and trains are not greenhouse gas efficient or cost 
effective. In the longer run, the problems of low ridership 
often disappear and transit investments can actually catalyze 
growth based on the experience to date with transit-oriented 
development, such as we have seen along the Hudson-Bergen Light 
Rail Line that the Senator mentioned.
    A hard-nosed policy, however, would more often build 
transit in response to demand rather than ahead of it. This 
suggests that the marginal transit dollar should be aimed at 
existing and obvious capacity constraints, such as the needed 
additional rail tunnel under the Hudson River connecting New 
Jersey and New York.
    In sum, transit serves as a core climate change solution. 
However, the specific type of transit and appropriate level of 
investment varies by locality, implying that more 
decisionmaking authority over the allocation of funds among 
modes should devolve to the regional planning agencies. Each 
such agency should be expected to create and follow a 
greenhouse gas action plan that guides investment priorities in 
a way that reflects national greenhouse gas emission reduction 
targets, regional network needs, local land use patterns, and 
adaptation requirements, because we are already experiencing 
the impacts of climate change on our networks.
    So to conclude, as the Senate prepares to address the 
problem of global warming and as it considers how to finance 
the nation's future transportation infrastructure needs, I urge 
you to keep transit in mind. Transit brings multiple benefits 
and deserves greater support than it currently receives. 
Transit can cost effectively help reduce greenhouse gas 
emissions, provided the projects are tailored to local 
conditions and land uses. The Federal Government should direct 
regional transportation planning agencies to do greenhouse gas 
action planning for transportation, and within that transit 
that pursues both mitigation and adaptation objectives. And 
finally, I believe that the funding should follow the planning.
    Thank you for the opportunity to testify.
    Senator Menendez. Thank you.
    Mayor?

    STATEMENT OF CHRISTOPHER CABALDON, MAYOR, CITY OF WEST 
    SACRAMENTO, CALIFORNIA, AND TRANSPORTATION VICE CHAIR, 
             SACRAMENTO AREA COUNCIL OF GOVERNMENTS

    Mr. Cabaldon. Thank you, Mr. Chairman----
    Senator Menendez. Do you want to turn your microphone on?
    Mr. Cabaldon. The ``talk'' button? We don't have ``talk'' 
buttons in California, but thank you. Thanks for the 
opportunity to be here and for your leadership on this issue.
    The Sacramento region is a region of about 2.3 million 
people, and although we are way out in California, we look a 
lot like America in terms of our urban, suburban, exurban, and 
rural distribution. Most of our region is rural and our Board 
of Directors for the region is split exactly evenly among the 
two political parties plus five people who will not tell us 
what their partisan affiliation is.
    In 2002, we adopted a regional transportation plan for the 
next 20 years' worth of investments, and as a former mayor and 
as a former Governor, you know the kinds of demands that we 
faced. Business interests wanted to put all of our money into 
roads and bridges. Environmental groups said, put it all into 
transit, 100 percent of your money. Neighborhood groups said, 
put it all into sidewalks and bike lanes.
    We decided to call their bluff and model those ideas in the 
extreme and said, what would our region look like if we put 100 
percent of the next $30 billion in our region into just 
transit, or into just roads, or into just bike lanes and 
sidewalks, and we suspected that we would get wildly different 
performance outcomes on air quality and congestion and all the 
other things that matter for quality of life.
    But here is the big lesson, number one, that we learned. 
Those extreme investment strategies produced exactly the same 
outcomes. The differences on air pollution and on congestion 
were in the second to third decimal point between those 
different strategies. And it was a big eye opener, and we 
thought, why is that? How could that be? How could you have 
such radically different investment strategies and not produce 
significantly different outcomes? The answer is that 
transportation investments have to be tightly coupled with 
other policies, and in particular, policies related to land 
use, which we had not done.
    So we adopted that plan 7 years ago and we said, we will do 
the best we can. We will put a lot more money into transit, 
into bike lanes, but we need to do something about land use. 
And so we spent the next several years adopting and preparing 
what is called in our region the Blueprint,\2\ which is a 
regional land use plan that enacts exactly the sorts of 
strategies that have been described here so far, and we adopted 
it and converted it into a transportation plan in 2008 based on 
that epiphany. It was a groundbreaking 50-year growth strategy 
for the whole region that incorporated a regional land use plan 
in addition to a regional transportation strategy that invested 
in exactly that land use distribution.
---------------------------------------------------------------------------
    \2\ The Blueprint Transportation Land Use Study Special Report is 
available for viewing in Committee files.
---------------------------------------------------------------------------
    Despite the political differences in the region and all 
those various interests, it was adopted unanimously and was 
universally acclaimed by business and the environmentalists, 
the social justice advocates, the newspapers, everyone else. It 
was a big deal and fundamentally transformed the way that the 
State of California is addressing its own approach to 
greenhouse gas emissions by looking at land use and at transit.
    So in doing that, we learned big lesson number two, which 
was that the four key policy outcomes that we were interested 
in--greenhouse gas reductions, urban revitalization, preserving 
farmland by reducing the demand for exurban sprawl, and 
transportation mobility--could only be achieved at the regional 
scale together. We couldn't tackle them as one-off strategies, 
one at a time. And public transit is the key linchpin for all 
of those to work together.
    So we adopted a new land use and transportation strategy, 
as I said, in 2008 that focuses a lot more growth into transit 
corridors, through transit-oriented development, but widespread 
changes in the way that we zone and do our general plans 
locally, and substantially increased our local investments and 
regional investments in transit, and that produces big changes 
in outcomes. Transit trips grow in our plan at more than twice 
the growth in population, and the growth rate for commute 
transit trips is about four times the population growth. That 
may not seem like very much, because transit trips account for 
a small amount, but even a 1-percent increase in transit trips 
produces a 10-percent reduction in congestion and significant 
improvements in both air pollution and in greenhouse gas 
emissions.
    So we are projecting and experiencing overall improvements 
in transit ridership, but also in transit productivity as we 
make use of the existing system that is already there in 
addition to adding additional ones.
    So what we are achieving here is an absolute decline in 
greenhouse gas emissions and vehicle miles traveled per capita. 
That is an outcome, a performance outcome that very few regions 
in the Nation have been able to achieve, but it is based on the 
tight marriage between land use and transportation and breaking 
the chains that have constrained us everywhere else.
    It also provides a big benefit for auto drivers. This is 
not just about providing additional services for bus riders. 
This reduces congestion and it makes it possible for the auto 
riders to make more efficient use of the system that exists as 
it is.
    This year, we have ramped it up even further based on our 
State's commitment to much more severe greenhouse gas targets, 
and so we have achieved even greater reductions in greenhouse 
gas emissions and in transit ridership and in urban 
revitalization and reducing the pressure on farmland growth. 
That has also led us to big lesson number 3, which is that 
transit investments have to happen early. They have to precede 
growth and development for them to work, that businesses and 
residents develop non-transit-based patterns even if you 
develop land use plans that are oriented toward transit.
    If you don't have the transit, people get used to cars. 
They demand at City Council meetings that you start building 
more parking lots. The changes that you want to achieve cannot 
be done by building the transit afterwards if you want the land 
use and sustainability outcomes to work. And we think citizens 
support that.
    Last November, as it was clear that we were in the depths 
of a major economic crisis, voters in my own city adopted a new 
sales tax just for a new streetcar system, and we have done 
that in places throughout California. And we are experiencing 
substantial increases in transit ridership throughout the 
State.
    So it is important that the Federal Government provide not 
just financial support, but also the policy context that allows 
us to move forward at the local and regional scales to achieve 
this. The House bill, as you mentioned, starts to address this. 
There is a good start in Section 222 of the House bill in 
looking at issues around land use and transit, but it is only a 
start and we would encourage you to move even further in 
aligning infrastructure and transportation planning and 
investments with greenhouse gas reduction goals and dealing 
with the substantial bureaucratic and red tape issues that have 
to do with constraining us in our ability to deliver the 
transit projects, as Michael mentioned at the beginning, 
because it is not just about adding more buses. Transit is not 
a one-size-fits-all, everybody get on the bus kind of solution. 
It is about rail and streetcars and neighborhood shuttles and 
vans. It is a wide range of solutions for a wide range of the 
market.
    Now, this is not about the government and the region saying 
to our residents that we want you to change your behavior, that 
we are going to, as planners, decide for the region what 
everyone is going to do, how they are going to live, work, and 
get around. What we have discovered in the development of this 
blueprint through both polling, focus groups, lots and lots and 
lots and lots of regional workshops, and looking at market 
data, is what we are doing is allowing the market to express 
what is already there in terms of demand, that home buyers and 
businesses want exactly this pattern of development that can 
only be achieved by transit, but our existing investment 
strategy essentially precludes it because we don't allow 
ourselves and we don't rebuild the infrastructure for that 
market demand to be realized.
    And so it is our job at the local, regional, and Federal 
level to change our policies and investment strategies to allow 
the choices that individuals and folks in the market want to 
make to be realized.
    So we very much appreciate the Committee's interest in 
these issues. We are firmly committed to doing our part at the 
regional scale and look forward to working with you to assure 
that the climate bill and the transportation reauthorization 
help us to achieve that. Thank you.
    Senator Menendez. Thank you, Mayor.
    Mr. O'Toole?

          STATEMENT OF RANDAL O'TOOLE, SENIOR FELLOW, 
                       THE CATO INSTITUTE

    Mr. O'Toole. Thank you, Mr. Chairman. Although I work for 
the Cato Institute, which is here in Washington, D.C., I 
actually live in Central Oregon. I grew up in Portland. I am a 
native Oregonian. I love trains. I bicycle thousands of miles a 
year. I have never commuted to work by car.
    And yet when I look at the question of transit and climate 
change, I have serious questions about whether transit can play 
a significant role in reducing greenhouse gas emissions for two 
reasons. We have 40 years of experience of trying to get people 
out of their cars by spending more money on transit. Since 
1970, this country has spent more than three-quarters of a 
trillion dollars subsidizing transit. Those subsidies have 
massively increased over that time.
    The operating subsidies have increased by more than 1,200 
percent in that time in real dollars, adjusted for inflation, 
and yet transit ridership has grown by only 45 percent. That 
has not even kept up with the population growth of our urban 
areas. Per capita, urban transit ridership has significantly 
declined in the last 40 years. Driving has significantly 
increased on a per capita basis. And so 40 years ago, 4 percent 
of all urban travel was by transit. Today, it is 1.6 percent. 
That decline is in spite or, or maybe because of, the huge 
government investments we have spent on transit.
    In my own home town of Portland, Oregon--my former home 
town of Portland, Oregon--transit and smart growth have proven 
to be a failure when you sit down and look at the actual 
numbers. Between 2000 and 2007, the Portland urban area gained 
more than 70,000 new jobs. Virtually every single one of those 
new commuters drives to work, and transit actually lost 
commuters. Fewer people take transit to work today than took 
transit to work in 2000.
    That is true in downtown Portland, as well. A 100 percent 
survey of downtown employers has found that the number of 
people commuting to downtown Portland has actually declined 
since 2001. And since two out of three transit commuters in 
Portland are downtown Portland commuters, that is one of the 
main reasons why transit is failing in Portland. So everything 
you hear about transit in Portland, you have to look at the 
actual numbers to find out whether it is actually true.
    Now, the second reason why I am suspicious about whether 
transit is a core climate solution is because transit itself 
consumes massive amounts of energy and emits enormous amounts 
of greenhouse gases. With all due respect to the honorable 
Mayor here, transit in Sacramento produces, on average, as much 
greenhouse gas emissions as the average SUV and consumes far 
more energy than the average SUV, and that is true in almost 
every city, every urban area in the country.
    Moreover, data show, which you can see in Figure 3 on page 
48 of my testimony, data show that energy consumption and 
greenhouse gas emissions of automobiles has been actually 
declining, whereas the energy consumption and greenhouse gas 
emissions per passenger mile for transit have been increasing. 
These trends are likely to continue if the Obama--if the auto 
manufacturers are able to meet Obama's fuel economy targets and 
then fail to increase energy efficiencies any further after 
2016, by 2025, the average car on the road today will be 
consuming less energy and emitting less greenhouse gases than 
any transit system in America. So unless transit finds a way to 
make itself far more energy efficient and far more greenhouse 
gas friendly, transit is going to be the culprit, not the 
savior, in reducing greenhouse gas emissions.
    The trends are that transit is getting worse, and transit 
is very slow to change. If you build a rail line, you are stuck 
with that technology for at least three to four decades before 
you can make any changes, whereas the automobile fleet turns 
over about every 18 years, so it can rapidly change.
    Now, it is interesting to compare public transit with 
private buses. Today, public buses are among the worst 
offenders in energy consumption and greenhouse gas emissions on 
a per passenger mile basis. They do far worse in energy 
consumption and are about equal to SUVs on greenhouse gas 
emissions. However, private buses, including private intercity 
buses, are among the most energy efficient and most greenhouse 
gas friendly modes of transportation around.
    Today, at least 14 different bus companies together carry 
more passengers and more passenger miles between Boston and 
Washington than Amtrak does and does so at less than half the 
energy consumption and less than half the greenhouse gas 
emissions than Amtrak uses in the Boston-to-Washington 
corridor. Those private companies have an incentive to fill the 
seats. Public transit agencies that get three-fourths of their 
money out of tax dollars and only one-fourth from fares have 
incentives to build urban monuments, not to fill the seats.
    And so we see our public transit systems running, on 
average, one-sixth full. Five out of six seats or standing room 
on transit buses or transit vehicles are empty, on average, 
over the course of any day, any weekday of the year. So we need 
to radically revise transit if transit is to become more energy 
efficient, if transit is to meet its own greenhouse gas 
targets, and I don't think even with such radical revisions are 
we going to significantly impact the amount of greenhouse gas 
emissions coming from automobiles because we are not going to 
be able to significantly get people out of their cars.
    Instead, what we need to do is what we did with toxic air 
pollution. We need to make cars more energy efficient. We need 
to make cars more climate friendly. There are many ways that we 
can do this, very low-cost techniques such as traffic signal 
coordination that will reduce greenhouse gas emissions from 
cars, and there are techniques on the horizon for significantly 
reducing congestion at a very low cost using our existing 
infrastructure. And I think those are the things we need to 
look at, not trying to change people's behavior in ways that 
they don't want to change.
    Thank you very much.
    Senator Menendez. Thank you, Mr. O'Toole.
    Mr. Tollerson?

   STATEMENT OF ERNEST TOLLERSON, DIRECTOR, POLICY AND MEDIA 
RELATIONS, NEW YORK STATE METROPOLITAN TRANSPORTATION AUTHORITY

    Mr. Tollerson. Good morning, Chairman Menendez. Thank you 
very much, and Senator Warner. Thanks again for the opportunity 
to testify today on the major role transit networks in 
metropolitan areas throughout the United States can play in 
reducing carbon dioxide emissions and shrinking the carbon 
footprint of our cities and metropolitan regions, as you all 
know, home to 65 percent of Americans and the source of 75 
percent of the nation's GDP.
    First, just a brief word about the MTA. The MTA network is 
one of the world's largest. We provide 8.5 million subway, bus, 
and commuter rail rides daily, or 2.7 billion rides each year, 
accounting for nearly one-third of all transit riders in the 
nation. The MTA also operates seven bridges and two tunnels 
that carry nearly 300 million vehicles a year.
    Now, we all know that there is no silver bullet that will 
enable the Nation to cut carbon emissions 80 percent by 2050. 
We need an integrated strategy and set of tools, including 
renewable sources of energy, the right breakthroughs in battery 
technology, and a smart grid. Transit ought to be a major part 
of a comprehensive strategy.
    The climate legislation the Senate is drafting offers an 
opportunity to fund transit networks in a way that will unlock 
our carbon cutting potential. Unlocking it will yield more 
transit, greener transit, and most important of all, greener 
communities, places where the amount of carbon it takes to 
live, work, and enjoy life is dramatically lower than it is 
today.
    As a sector, we are reaching the point where we can 
accurately score the climate-stabilization benefits of transit 
through mode shift, getting people from cars onto transit, 
transit's role in minimizing congestion, and then the most 
powerful source of carbon reduction, the integration of transit 
and green density, both residential and commercial, around 
transit stations, which as we know reduces trip length and 
frequency while encouraging walking and biking.
    The MTA's carbon footprint totaled 2.7 million metric tons 
of greenhouse gas emissions in 2008. However, the greenhouse 
gas emissions the MTA generates are offset many times over by 
the carbon emissions the MTA helps avoid by getting people out 
of cars and, again, onto subways, buses, commuter rail, bus 
rapid transit. For every metric ton of carbon an MTA service 
emits, the MTA helps avoid more than 8.24 metric tons of 
greenhouse gases, which is a weighted average for the MTA's 
5,000-square-mile region. Put another way, the MTA's 2008 
carbon footprint resulted in a net reduction of nearly 20 
million metric tons. That is the equivalent of the carbon 
stored annually by a healthy forest of 7.7 million acres.
    Now, transit's full climate stabilization benefits will 
only be unlocked if the new investment in upgrading transit 
infrastructure and expanding transit networks also encourages 
the clustering of green commercial and residential development 
around transit. Transit-oriented development offers much more 
than new housing and lifestyle choices. TOD makes it easy to 
dramatically reduce greenhouse gas produced by the way you 
life, shop, and you pursue leisure activities.
    Throughout the United States, upgrading transit and 
expanding transit is already creating green density in places 
many of you represent. It is visible in thousands of housing 
units developed around the Hudson-Bergen Light Rail Line in New 
Jersey, in your neck of the woods, Mr. Chairman, the explosion 
in residential development around the Metro North Station in 
Yonkers in the MTA's region, and in places like the Euclid 
Avenue Corridor project in Cleveland, where a $168 million 
public investment attracted billions in private investment.
    The revised Waxman-Markey bill allocates 1 percent of the 
value of allowances to transit networks. In light of the 
carbon-cutting potential of U.S. transit agencies, especially 
transit's potential to give people the option of living in 
communities with fewer cars per household and lower auto usage, 
the MTA and other transit agencies believe that allocating a 
larger share of allowances to transit would enable the Nation 
to accelerate its efforts to reduce greenhouse gases.
    Within the MTA, we suggest that Congress invest 7.5 percent 
of allowances in transit, with 5 percent to increase access and 
expand transit networks, including the following services: New 
lines, line extensions, feeder and distributor services, all of 
which foster transit-oriented development; signal upgrades that 
boost the frequency of service; new green fleets; LEED 
standards for stations, bus depots, and rail yards.
    We also suggest that you allocate 2.5 percent to green and 
improve the carbon efficiency of existing transit 
infrastructure. That involves smart fleet projects, 
lightweighting rolling stock, regenerative braking, onboard 
power, wayside power, and again, green station renovation.
    This call for allocating 7.5 percent of allowances to 
transit is consistent with the American Public Transportation 
Association's call for a minimum of 10 percent of allowances 
for transit and other strategies to reduce VMT.
    Every day, America's transit networks bring about major 
greenhouse gas reductions the old-fashioned way, through mode 
shift and reducing congestion. With the appropriate provisions 
in your climate bill, you can advance the nation's greenhouse 
gas reduction goals by, first, again, expanding transit's 
capacity to get people out of cars and onto transit, and 
upgrading existing transit lines and expanding transit networks 
so that transit can transform our cities and metro regions into 
communities with low-carbon lifestyles and low-carbon places to 
work.
    This solution set can be deployed now, not in 5 years or in 
10 years. In short, your bill can unlock transit's potential to 
green the way we live, work, and enjoy life and communities 
throughout the nation.
    Thank you again for the opportunity to testify and I would 
be happy to answer any questions you have.
    Senator Menendez. Thank you all very much for your 
testimony.
    We will start a round of questions, and since there are 
only two of us, at least at this point, we will be a little 
flexible in that process. If more join, then we will go back to 
regular order.
    Let me say that I would be remiss if I ignored Mr. 
O'Toole's views that, in fact, we are wasting our money in 
transit, at least certainly as we have it devised now. I don't 
say that I join that view, I hear it. What would the rest of 
the panel say? Is there a divergence here? I don't want it to 
just be silent at the end of the day. Yes?
    Mr. Replogle. With all due respect to Mr. O'Toole, I think 
the analysis that he brings comes out of a sort of very narrow 
perspective on statistical division of one set of numbers by 
another set of numbers, looking quite narrowly at taking 
vehicle miles of travel by different vehicles and dividing by 
energy use to calculate the impact on greenhouse emissions 
when, in fact, the proper way to evaluate the question of the 
impacts of transit on greenhouse gas is to look at its impact 
on how the system operates.
    If we think only of what happens when transit goes on 
strike in a major city like New York or Chicago and disappears 
for the day, we witness how traffic congestion gets much worse, 
the economy shrinks, a host of other problems occur. And if 
that were to persist in the long run, in fact, we would not be 
able to sustain our metropolitan economies as we do. Transit is 
indeed the foundation that underpins our ability to organize 
cities efficiently so that people can live and work and play in 
close proximity to each other without having to be dependent on 
a car for every trip, and it enables the clustering of those 
trips in ways that don't force us to provide a parking space 
for every trip end so that we can have the kinds of places that 
we enjoy most as human beings, where the things that draw us to 
cities aren't parking lots but, in fact, the intense array of 
activities that enable us to be close to each other in 
community and in economic relationships. That is what is 
supported by transit.
    Transit also enables us to have a lot more shared walls 
between buildings so that we see typically 30 or 40 percent 
higher overall building energy efficiency and 30 or 40 percent 
lower utility costs for dense mixed-use activity centers 
compared to auto-dependent sprawl neighborhoods. We have seen 
the market for car-dependent sprawl collapse in the wake of our 
current credit crunch and economic downturn. The places where 
real estate value is holding up are the places that people can 
get to with less dependence on cars because those are the 
places that have the best chance to be economically competitive 
in the future, a future in which we are likely to face higher 
energy costs and a world in which carbon matters.
    Senator Menendez. Anyone else? Professor Andrews?
    Mr. Andrews. Thank you. I think I actually agree with Mr. 
O'Toole on the importance of filling transit seats. Empty buses 
are a disaster. Empty trains are even more of a disaster. I 
think we disagree----
    Senator Menendez. How about cars that only have one out of 
five seats----
    Mr. Andrews. Another disaster, I agree. I think I disagree 
with him on the characterization of the technologies, though. 
There is a dynamic of technological improvement for cars, 
absolutely, but it also applies to transit, and there is no 
reason not to expect both to be improving over time.
    Also, we have demonstrated by creating the highway system 
how it is possible to change settlement patterns and transit 
becomes the key tool in the long run for trying to change them 
again, I think.
    And then finally, something we haven't really talked about 
much is how important transit is to those who don't have cars 
or who are not old enough to have a driver's license or are too 
old to have a driver's license. I am always impressed when I go 
to places that have good transit with how much happier the kids 
are because they can have a little bit of independence to do 
things.
    Senator Menendez. Mayor?
    Mr. Cabaldon. Mr. Chairman, if I might, just Mr. O'Toole's 
analysis is not totally inconsistent with what I said at the 
beginning with regard to how we did our own regional planning. 
We said, what if we did put all of our money into transit? But 
what it ignores is that we have been in the last generation 
spending more and more money on transit, trying to keep up with 
a land use pattern that does not support it, and so each--at 
the increment, at the margin, it costs a lot more to have the 
bus stop at every little cul-de-sac to get around. So the 
relative productivity of that transit dollar has been declining 
as a result of not mirroring it with land use.
    That is not unique to transit. It is also true with the 
road systems that we are building. And so if we were to do the 
same analysis, we would find the same performance metrics for 
roads, that the relative amount of money that we have been 
spending on them has also been declining in its performance and 
we are not achieving our goals with respect to mobility or 
congestion there, as well.
    So it is--I think the lesson isn't that transit doesn't 
work, it is that transit in a vacuum without paying attention 
to the places that it is intended to serve is not effective 
because it does result in either empty buses or super-long 
transit trips that make it impossible to achieve both the 
greenhouse gas benefits but also the community building 
benefits.
    Mr. Tollerson. Mr. Chairman, as I listened to Mr. O'Toole's 
analysis, I just sort of quickly envisioned New York kind of 
grinding to a halt. The economy of the city and the economy of 
the region is really based on being able to attract people and 
their brainpower and their talent in the private sector and 
higher education. Frankly, our buses are full. I would rather 
have more full hybrid electric buses on the streets of New York 
than everyone sort of think they could buy a Prius and move 
around the city, move around a region. It just won't work.
    So again, if you are concerned about the economic output of 
these sort of major metropolitan areas over the decades ahead 
and continue to have cities like New York and Chicago to be 
powerhouses for this nation, you are going to have to have a 
balanced solution. You are going to have to have a lot of rapid 
transit. You just simply can't say everyone can have a Prius or 
a plug-in car. Regions will just come to a halt.
    Senator Menendez. Mr. O'Toole?
    Mr. O'Toole. Well, there has been a lot of talk about land 
use patterns. I like to say there are two kinds of cities in 
America. There is New York, then there is everywhere else. New 
York is one situation where transit does seem to be vital, 
although it is not financially sustainable. It requires heavy 
subsidies from motorists and it is in a perpetual state of 
financial crisis. It does seem to need transit to maintain that 
high-density core area.
    Other cities are different. Transit is not vital to those 
cities. Transit is important to people who don't have access to 
the automobile, and I don't have any objections to transit. 
What I object to is pouring huge amounts of money into transit 
with the thought that we are going to significantly reduce auto 
driving.
    I don't think changing land use patterns is going to work. 
It hasn't worked in my home State of Oregon, where we have been 
attempting to change land use patterns for several decades. It 
hasn't worked in getting people out of their cars. What it has 
done is it has gotten people out of the Portland area. We have 
made housing unaffordable in Portland, and so families with 
children have moved to Vancouver, Washington. They have moved 
to Salem, Oregon. And now they are commuting 50 miles a day 
each way instead of five miles a day because that is the only 
way they can work in Portland, is to live far outside of 
Portland. That is one of the reasons why we end up seeing fewer 
people commuting to work by transit and more people commuting 
to work by car.
    So changing land use patterns, trying to give people 
incentives to live in high-density developments is not working 
in Portland and I don't think it is going to work anywhere 
else.
    Right now, 1.6 percent of urban travel is by transit. It is 
much higher in New York, but just about everywhere else, it is 
lower. That means more than 95 percent is by automobile. If we 
want to significantly reduce energy consumption, if we want to 
significantly reduce greenhouse gas emissions, it is better to 
work on the things that people use the most. It is better to 
work on the automobiles and make them more energy efficient and 
make them more greenhouse friendly than it would be to try to 
get people out of their cars, an effort that we have been 
trying to do for the last 40 years and an effort that has 
failed.
    Senator Menendez. I thank you all for your answers and I 
want to turn it over to Senator Warner. Before I do, I just 
want to make some observations for the record.
    We have spent in the last transportation bill $200 billion 
on highways. Now, that is a subsidy. That is a subsidy, but we 
don't seem to think of it in that respect.
    I look at some of the things that--not the New Yorks, but 
the St. Louis Metro Link Light Rail System did a survey. They 
found nearly 60 percent of their 14 million riders would be on 
the road in their cars if trains weren't running. I look at the 
fact that that same survey found that among bus riders, 70 
percent said they did not drive or had no car available while 
just 17 percent of train riders similarly had no means to 
drive.
    And on average, most of the seats, if we look at a car, I 
hear about transit systems not having every seat filled, but 
cars have slightly more than one out of five seats filled 
during rush hour. About 21 percent of seats in cars are filled, 
according to the Federal Transit Administration, versus more 
than 40 percent of seats during transit rides.
    So I think we have to have the totality of the picture here 
to understand what we are talking about.
    With that, Senator Warner?
    Senator Warner. Thank you, Mr. Chairman, and thank you for 
holding this hearing. It is a very interesting panel.
    I have got a couple of questions. One, I was very 
interested in the difference between Professor Andrews and 
Mayor Cabaldon on the way you approach the notion of transit. 
Professor Andrews is saying sometimes it is better to think 
about putting in a system after you have already identified the 
choke points, Mayor Cabaldon's point being let us do it more on 
the front end in terms of the planning. I would love to hear an 
exchange between the two of you on that subject.
    And then Mr. Cabaldon, as somebody who was not perhaps as 
successful as you with transportation referendums--I still bear 
the scars from my effort as Governor back in 2002--I am 
interested in your Blueprint plan, and I am a big believer that 
you have got to have metrics, and I am just curious whether, as 
you kind of laid out your plan, you have got a measurement 
based upon job creation or density around transit locations.
    Again, I hear Mr. O'Toole's comments. I can cite one other 
example that may not be New York, but in Northern Virginia, 
because there was a community, not mine, but an adjacent 
community. Arlington County planned its development around 
transit stops on our Metro and it is, I think, viewed as one of 
the more successful examples of high increased density around 
transit stops. It sure as heck has not alleviated our traffic 
congestion. We still have that and big challenges throughout 
Northern Virginia. But it seems to be a case where transit and 
planning has worked in terms of job creation. I would be 
curious to see, Mr. Cabaldon, whether you have gotten any 
questions that way.
    But first of all, perhaps the Mayor and Professor Andrews 
can go back and forth in terms of your approach on where you 
site.
    Mr. Andrews. I will give the Mayor the last word. I 
basically said there are very good reasons if you don't have 
much money to invest in transit that clearly has immediate use, 
and that was the analogy to--giving the example of the tunnel 
under the Hudson, where we desperately need that capacity. That 
won't waste any public dollars or private dollars in the short 
run. It will be immediately used to capacity.
    But if we are trying to also be thinking about the long 
run, and I was using the portfolio analogy before, saying we 
need to balance our risks and rewards, then building transit 
ahead of demand can help with that slow, decades-, really 
generations-long process of changing land use patterns.
    The Hudson-Bergen example is somewhere in the middle, where 
we very quickly changed settlement patterns in response to the 
commitment of having that light rail system. We knew where to 
invest, and so we did it quickly. It was a good market. Other 
places, it may take longer, so then it becomes a question of 
how patient is our capital.
    Mr. Cabaldon. If I might comment on that----
    Senator Warner. I apologize about mispronouncing your name 
earlier, but Mr. Mayor?
    Mr. Cabaldon. Thank you. Yes, I don't think there is a 
disagreement on this issue. I wish my community had more 
transit choke points. We just don't because of the--I am in a 
fast-growing region that suburbanized heavily in the 1970s and 
1980s and we don't have a lot of the things like the tunnel, 
where you look and you say this is obviously a place where you 
have a lot of unmet demand and the service is already being 
provided.
    But we are trying to shape development into the future, and 
I think the Portland streetcar example is actually a good 
example of this in that--in terms of its ability to shape 
development and migration patterns and trip-taking patterns as 
people are moving in and in ways that putting a sign up that 
says, 20 years from now, a bus system will be here or a light 
rail system doesn't do.
    And you have to get around when you first move in. And so 
it is essential that those choices get adopted immediately. If 
you just adopt a general plan that is heavy on density but you 
don't provide any means for people to get around, they will 
find ways to move and it will often involve an automobile and 
the quality of life will deteriorate. So it is just a question 
of, as new places are being created, making those investments 
early.
    Now, we don't just throw transit services up everywhere. I 
mean, it has to be part of a very strategic investment strategy 
of other resources to make sure that development is actually 
going to happen and that people are actually going to be there, 
because we don't have a lot of transit dollars to be spending 
running empty buses or streetcars or light rail systems. So it 
is not as though we just throw it up willy nilly, hoping that 
some rider will show up, but as part of a more fully developed, 
funded development project, it is really critical that that 
development, that the transit system be there at the outset. 
Otherwise, other habits get developed.
    Senator Warner. Talk to me about how you then weigh in the 
job creation component around transit and what kind of metrics 
you use to measure that.
    Mr. Cabaldon. We have been principally interested, because 
we have been such a fast-growth region, we haven't been focused 
as much on job creation because we have been very jobs-rich. 
Now, that is changing somewhat as it is elsewhere, but it 
hasn't been one of the formal metrics. The actual development 
of business in the region has been, though, regions around the 
transit stops.
    And so we are very attentive at the regional and the local 
scale to what is actually occurring around these stations, 
around the bus stops and other transit facilities, and we don't 
provide funding for them unless we know that there is going to 
be--you know, there is a development plan that aligns with that 
and that there are actual investors ready to make that work.
    In addition to money for transit, we also provide money at 
the regional scale for housing and other things that all gets 
wrapped in this together. So we know that if you are asking to 
open up a new light rail station that there is also going to be 
money to help support the housing. You also have already signed 
up developers. You already have the businesses that are going 
to locate nearby before we start deploying the scarce dollars 
that are there.
    And we are seeing that. I mean, in terms of our--the change 
in demand in just the 4 years since we adopted the land use 
plan, kind of the Blueprint-oriented housing project, small lot 
housing, attached housing with shared walls and what have you 
has gone from 20 percent of the market share to 70 percent of 
the market share. That is not because planners announced that 
we have decided that every member of the public will suddenly 
now be forced to buy these products. There was a huge pent-up 
demand for exactly this kind of development pattern, and the 
employers have followed suit.
    For us, attracting the kind of employment that depends--the 
creative industries and other things that depend on a more 
diverse urban environment than we have had in the Sacramento 
region, transit has been a key part of that economic 
development strategy in terms of attracting new jobs.
    Senator Warner. Mr. Chairman, could I ask another question? 
Let me take a different tack than Mr. O'Toole. I would be 
anxious to hear your comments on this, as well.
    I am intrigued with some of your comments about the growth 
of the private company bus competition in the Boston-to-
Washington corridor. Another area that I have had some interest 
in for some time as Governor, and we have kind of an 
interesting phenomena here, again, in the greater Washington 
area, is the use of vanpools, ride shares, and we have a 
phenomena that I don't think is completely unique to greater 
Washington, but pretty famous, where we have kind of a self-
formed market of what is called ``slug riders'' who form at 
park-and-rides and there is kind of an informal system that has 
been created where people can come up the 95 corridor kind of 
sharing rides together.
    We had a hard, hard time, though, really expanding those 
ride-share opportunities, or really expanding van markets. And 
I have seen--and there is a question--there have been a couple 
of companies that are out there that work with private 
companies to try to create that, but we have never been able to 
seem to get the incentives right. And I would love to hear from 
the whole panel, beyond just the idea of a formal State or 
metropolitan-driven transit system, this whole concept and kind 
of an interim between a formal public system and perhaps Mr. 
O'Toole's total free market approach here.
    But what are the barriers, or are there some other best 
practices that we ought to be thinking about in terms of ride 
sharing, vanpooling, and other kinds of in between options, 
particularly when you have got not straight single corridors 
that so many growing communities don't have. Anybody on the 
panel? Please.
    Mr. Replogle. Sir, well, I think there are a lot of 
opportunities to fill empty seats in both private cars, in 
paratransit vehicles, and in buses and trains that we haven't 
exploited that we could exploit through principally providing 
better information and communication support for the 
marketplace. And that information needs to come in two forms. 
One is sort of the classic form of simply giving people a more 
visible marketplace where they can go and find people to fill 
empty seats if they have them to offer, or to find empty seats 
if they want to ride. But two, the form of information that 
comes in the form of pricing--pricing parking, pricing car 
insurance, pricing transit, pricing road access at times of 
peak demand.
    We are making progress on all of those things. There are 
new companies, like NewRide.com, which has been operating in 
Northern Virginia in the Washington region, and some other 
markets which are helping employers and ordinary travelers find 
those empty seats on a dynamic real-time ride-matching basis, 
and those can make a difference, but they are competing in a 
marketplace in which 90 percent of employers in the suburbs are 
offering free parking at the workplace that is often worth $2 
or $3 or $4 a day as a subsidy for driving. It is actually 
worth more than if your employer paid for your gasoline to go 
to work.
    And that comes also in a marketplace in which our car 
insurance payments are distorted by fixed-price insurance 
pricing, where you buy a policy for a 6-month period that 
doesn't really matter much if you drive 3,000 miles or 30,000 
miles in that 6-month or year period. You are going to pay 
about the same for your car insurance.
    Now, there are some companies coming into the market like 
Progressive----
    Senator Warner. I am familiar with that company.
    Mr. Replogle.----like MileMeter in Texas. Progressive is 
now in eight or nine States, GMAC insurance in about 19 States, 
offering mileage-based car insurance, where you pay by the 
mile. And that actually translates into an opportunity for 
consumers to put money back in their wallet if they drive fewer 
miles, if they chain their trips together, if they share a ride 
or take the bus to go to work rather than drive. They get to 
save on their car insurance, and that savings on car insurance 
is worth like eight cents a mile. It is about the equivalent in 
terms of affecting behavior that you get from a $1-a-gallon 
increase in the price of gasoline.
    And yet it comes in a way that this pay-as-you-drive 
insurance--Brookings did a study last summer showing that two-
thirds of households would save money under a pay-as-you-drive 
insurance system, with the average of those households saving 
about $270 per vehicle per year, and disproportionate savings 
going to low- and moderate-income people who tend to drive less 
than the higher-income people.
    So we need to get a number of these pieces of information 
right and we need to also be looking for new opportunities. I 
think Randal O'Toole is right in saying that there are some 
real opportunities in the market that public-subsidized transit 
often displaces and bars from happening, and we need to be 
looking at ways of reallocating street space for things like 
bus rapid transit, so we don't have to spend as much money by 
building a subway but instead can manage that transit service 
with a subway-like quality of service, with bus lanes, with 
stations, but at a tenth the cost of building a new underground 
rail line. So there are a lot of ways we can do this.
    Mr. O'Toole. Can I respond to this question?
    Senator Warner. Please.
    Mr. O'Toole. There are at least three transit systems in 
this country that are entirely private and entirely 
unsubsidized. One is the New York Waterway System, Arthur 
Imperatore's system between New Jersey and Manhattan. One is 
the Atlantic City jitney system. And one is the Publico System 
in Puerto Rico. These systems are owned by their operators, in 
the case of Atlantic City and Puerto Rico. The buses are 
generally standardized. They follow fixed or variable routes 
and they charge a fare and the fares cover all of the costs. It 
is sort of like a shared taxi system, especially in San Juan.
    And there is no reason why we can't have those kinds of 
systems in other cities except, first of all, it is illegal. If 
I were to try to start a jitney or a shared taxi system in most 
cities in America, I would not be allowed to do so because the 
taxi industry and the transit industry have successfully passed 
laws preventing any competition. Even if it was legal, I would 
be competing against a heavily funded, heavily subsidized 
transit system which would make it very hard for me to compete.
    I know somebody tried to start a jitney system in Denver, 
Colorado. They were allowed to operate on one route only. They 
said if they were allowed to expand onto more routes, that they 
would be able to become profitable and they were not allowed to 
expand onto other routes and so eventually they went out of 
business.
    So I think there are opportunities. We need to start 
thinking about private transit because private transit has an 
incentive to be efficient. We need to take away the barriers 
that prevent private transit. And if we are going to subsidize 
people because we think transit is good, instead of subsidizing 
transit agencies that tend to build urban monuments, maybe we 
should give those subsidies to the transit users and let them 
decide are they going to use their transit vouchers on a taxi, 
are they going to use it on a public transit system, on a 
private transit system, on Greyhound, on Amtrak, or on United 
Airlines? That kind of a system, I think, will be far superior 
to a system where we are spending huge amounts of money and not 
getting much in return.
    Senator Warner. Others, please?
    Mr. Andrews. Two comments. I think there is a clear role 
for private operators and an expanded role. It does spring up 
naturally in our cities. If I think of Paterson, New Jersey, in 
my home State, the immigrant population has created jitney 
services on their own and it works great except that there are 
safety dangers. And so with the private enterprise comes the 
need to regulate for health and safety, and that is something 
that has not been consistently done, in my opinion.
    The second thing I wanted to raise, and really the 
intercity private bus services illustrate this, is that we are 
living in a new era where we can get transit and travel 
information easily on the cell phone and that is how you find 
out where to get the bus and when it is leaving, and that is 
something that should be much more prevalent, public and 
private. This is a way to make the system smarter and get the 
riders to the system.
    Senator Warner. Please, Mr. Tollerson?
    Mr. Tollerson. First, I would first want to echo what 
Michael Replogle was saying. Essentially, in our region, what 
people don't have is the information that says, out of 5 days 
in going to work, these 3 days I could take some form of rapid 
transit. There might be 2 days where you need to drive. But 
what they don't have is sort of the all-in costs of those 
options in a real-time way and it is something that we are 
looking at and trying to provide people. But mainly, it is 
people don't think about the all-in cost of insurance, 
maintenance costs, and actually where they are going and 
whether it makes sense if you are sitting in an office or you 
are sort of visiting various sites.
    Senator Warner. My last point, and again, thank you for 
giving me this time, Mr. Chairman, I just want to say I am very 
interested in these ride-sharing approaches. But being 
familiar, for example, with New Ride, which we have supported 
in Virginia, it is--and there are lots of other competitors 
with them--it is tough to find, though, an economically viable 
methodology for the company to sustain itself. They have 
actually found that in Houston, they have had the best luck 
because there is a community down there that supports with, in 
effect, incentives to folks to share those rides together.
    And again, I share the Chairman's view that we are talking 
about massive subsidies when we talk about the cost of building 
additional highway capacity, which is extraordinarily 
expensive, and so how, whether it is through transit or through 
sharing rides we can increase the capacity, increase the 
utilization and the capacity we have got, and it seems to me 
that ride sharing, vanpooling, and these other options ought to 
be a bigger part of the mix. But thank you, Mr. Chairman.
    Senator Menendez. Thank you, Senator. Thank you for the 
line of questioning. There are a lot of interesting things that 
came up. One or two observations, one question, and then we 
will close the hearing and move on.
    You know, on van sharing and ride sharing, I think it is 
one of the important things we need to look at. I know that in 
New Jersey, Professor Andrews mentioned Paterson, but I can 
tell you all along the Hudson River waterfront, even though 
there is a light rail system, even though there is trans-Hudson 
crossing to the Lincoln and Holland Tunnel and the George 
Washington Bridge, that there is a whole universe of vans that 
are operating against New Jersey Transit, against New York 
Waterway--which, by the way, Mr. O'Toole, is subsidized to a 
significant degree. The ferry terminals that were created, I 
happened to be the Congressman at the time, and $10 million of 
Federal money went to create the ferry terminal. After 
September 11, they were subsidized by the Port Authority of New 
York and New Jersey to have crossings going on in light of the 
PATH tunnel being closed to the World Trade Center. So it is a 
good system. It is another means of transportation, which is 
important, but it is not without subsidy.
    And these vans, they basically get an interstate charter 
and they get a license and then they are allowed to have all 
types of routes. The difficulty is, of course, the safety and 
insurance issues. A lot of them go largely unregulated and so 
when we have an accident, it is sometimes deadly, and that is 
the one thing. But it is another system that is actually 
working and largely by blue collar and immigrant communities 
that are doing it.
    Getting it right is important, but the possibility of 
existing alongside transit, taxi, subway, ferries, all exist. 
So the competition is there, and yet it flourishes, so it is 
possible.
    The one thing I would ask is that, or make the observation, 
while ride sharing and vanpool options are important as part of 
this transportation mix, one of the challenges, however, is 
that what it doesn't do, it doesn't change land use patterns in 
the way that a transit hub can. And clearly, in that context, 
when you join the development issues that the Mayor has talked 
about and some of you, as well, what developers are looking at 
is is there a fixed point in which there will be an opportunity 
for the community that I help develop here have access to a 
transit line that will get me to work, pleasure, hospital, 
whatever, and I think that that is one of the fundamental 
differences.
    And Mayor, I would jus like to ask you, it seems to me that 
what you have done there in the Sacramento region is not just 
an emissions reduction strategy, but it is also a growth 
strategy, a smart growth strategy that can also create billions 
of dollars in investment. Have you all through the Commission 
looked at what are the economic benefits? Senator Warner asked 
particularly about jobs, but have you looked at what the 
economic benefits have derived from virtue of your planning?
    Mr. Cabaldon. We have. I did not bring that with me, but we 
have, because it wasn't--you know, we began this process before 
the national policy interest in climate change. We didn't start 
this because of the greenhouse gases. We started it because we 
saw a growth pattern that was not economically or 
environmentally sustainable just on its own terms. And so it is 
about for us directing growth and economic activity toward 
urban revitalization and protecting the rural heritage of the 
place. And so we did model all of that.
    And when we invited citizens to come in and work on exactly 
these issues, they sat down with development and finance tools 
to figure out, OK, you want a light rail line to go to your 
cul-de-sac. Here is the economics. Here is what would have to 
be built around it. And citizens became very, very aware and 
engaged about the tight relationship between their 
environmental and transportation policies, but also the 
economy, and that became critical to building this broad 
universal consensus toward it----
    Senator Menendez. Is it fair to say--and while you can't 
quantify it for me right now, we would love to have that for 
the record subsequently--is it fair to say that that type of 
policy created very significant investments, drove investments 
at the end of the day?
    Mr. Cabaldon. Yes.
    Senator Menendez. Listening to what you are describing, 
clearly, you had to have private capital come in to go ahead 
and build around those regions that you created opportunities 
for only if that investment is going to exist.
    Mr. Cabaldon. Right. That is absolutely correct, and in 
large part because there really was a demand in the market by 
employers, builders, home buyers, everyone else, that we just 
were not acknowledging. We were doing this--we were just 
repeating our old plans over and over and over again, not 
acknowledging that there were a lot of changes in the economy 
that we were not exploiting.
    Senator Menendez. My own experiences along the Hudson River 
waterfront, what was abandoned railroad yards, toxic and lying 
fallow not only because they were toxic, but also their ratable 
basis had gone, is that the creation of a light rail system 
connecting all of the communities along that to trans-Hudson 
crossings created a new generation of rebirth of businesses, of 
jobs, of ratable bases, all in a very sustained area for which 
a light rail system runs to a trans-Hudson crossing to a ferry 
or through PATH into the city of New York and has clearly 
reduced the incredible amount of traffic that would have 
existed if the development had just been without such a system. 
As a matter of fact, probably we would have had to have 
significant acquisitions of land in order to provide for the 
car services that would have been necessary but for a transit 
line.
    So I think those are examples of the type of smart growth 
that we are talking about, the type of transit-related 
opportunities around development, joined with development that 
at the end of the day makes it for high ridership, makes it for 
less cars, less emissions, more ratables, greater economic 
opportunity, and employment. I mean, I think that is the 
Committee's vision of how we would like to structure the policy 
and the incentives to move in the right direction.
    With that, I appreciate your testimony. Seeing no other 
members before the Committee to ask any questions, we will 
conclude our hearing on Public Transportation and Climate. I 
want to thank all of you for participating and helping the 
Committee prepare for the upcoming debate.
    This record is going to remain open for 1 week to allow 
Senators who may have had other obligations the chance to ask 
follow-up questions in writing. We ask that if you actually get 
any questions submitted to you, and I know that I have several 
that I didn't want to belabor the hearing with that I am going 
to be sending you, we would love to have your response 
promptly.
    With that, the hearing is now closed.
    [Whereupon, at 11:04 a.m., the hearing was adjourned.]
    [Prepared statements and responses to written questions 
follow:]
               PREPARED STATEMENT OF SENATOR TIM JOHNSON
    It is no exaggeration to say that our economy is currently 
experiencing extraordinary stress and volatility. As Congress and the 
Administration look at corrective policy changes, I am pleased to hold 
this hearing today to take a closer look at the role smaller financial 
institutions, specifically community banks and credit unions, play in 
our economy, especially in many rural communities. Throughout our 
nation's economic crisis there has often been too little distinction 
made between troubled banks and the many banks that have been 
responsible lenders.
    There are many community banks and credit unions that did not 
contribute to the current crisis--many rural housing markets that 
didn't experience the boom that other parts of the country did, and 
community lending institutions didn't sell as many exotic loan products 
as other lenders sold. Nonetheless, small lending institutions in rural 
communities and their customers are feeling the effects of the subprime 
mortgage crisis and the subsequent crisis in credit markets. Jobs are 
disappearing, ag loans are being called, small businesses can't get the 
lines of credit they need to continue operation, and homeowners are 
struggling to refinance.
    Smaller banks play a crucial role in our economy and in communities 
throughout our nation; we need to be mindful that some institutions are 
now paying the price for the risky strategies employed by some larger 
financial institutions.
    In coming weeks, the Banking Committee will continue its review of 
the current structure of our financial system and develop legislation 
to create the kind of transparency, accountability, and consumer 
protection that is now lacking. As this process moves forward, it will 
be important to consider the unique needs of smaller financial 
institutions and to preserve their viability as we come up with good, 
effective regulations that balance consumer protection and allow for 
sustainable economic growth.
    I would like to welcome our panel of witnesses, and thank them for 
their time and for their thoughtful testimony on how small lending 
institutions in rural communities have been affected by our troubled 
economy. I would also like to thank Senator Kohl for his interest in 
today's hearing topic. I will now turn to Senator Crapo, the 
Subcommittee's ranking member, for his opening statement.
                                 ______
                                 
                PREPARED STATEMENT OF SENATOR MIKE CRAPO
    Many community banks and credit unions have tried to fill the 
lending gap in rural communities caused by the credit crisis. Even with 
these efforts, it is apparent that many consumers and businesses are 
not receiving the lending they need to refinance their home loan, 
extend their business line of credit, or receive capital for new 
business opportunities. Today's hearing will assist us in identifying 
these obstacles.
    As we began to explore options to modernize our financial 
regulatory structure, we need to make sure our new structure allows 
financial institutions to play an essential role in the U.S. economy by 
providing a means for consumers and businesses to save for the future, 
to protect and hedge against risk, and promote lending opportunities. 
These institutions and the markets in which they act support economic 
activity through the intermediation of funds between providers and 
users of capital.
    One of the more difficult challenges will be to find the right 
balance between protecting consumers from abusive products and 
practices while promoting responsible lending to spur economic growth 
and help get our economy moving again. Although it is clear that more 
must be done to protect consumers, it is not clear that bifurcating 
consumer protection from the safety and soundness oversight is the best 
option. If that is not the best option, what is and why? It is my 
intention to explore this topic in more detail with our witnesses. 
Again, I thank the Chairman for holding this hearing and I look forward 
to working with him on these and other issues.
                                 ______
                                 
               PREPARED STATEMENT OF MICHAEL A. REPLOGLE
    Global Policy Director and Founder, Institute for Transportation
      and Development Policy, and Policy and Strategy Consultant,
                       Environmental Defense Fund
                              July 7, 2009
     Good morning Mr. Chairman and members of the Committee. I 
appreciate the opportunity to testify on the important, issues of 
transportation and climate change, and the opportunities we have to 
reduce greenhouse gasses while enhancing mobility. This Subcommittee 
can play a key role in promoting policies to accomplish these shared 
goals, while also creating jobs, enhancing housing affordability, and 
reducing transportation costs for consumers and governments.
    I am presenting testimony today on behalf of the Institute for 
Transportation and Development Policy (ITDP) and Environmental Defense 
Fund (EDF). ITDP is a non-profit group with its headquarters in New 
York City that since 1985 has promoted environmentally sustainable and 
socially equitable transportation worldwide, working with city 
governments and local advocacy groups to implement projects that reduce 
poverty, pollution, and oil dependence. EDF is an environmental 
organization with over 700,000 members that integrates law, science, 
and economics to find practical solutions to environmental problems.
Transportation and Climate Change: A Critical Connection
    Reducing emissions in the U.S. transportation sector is integral to 
effective climate and energy policy. Currently, 28 percent of total 
U.S. greenhouse gas (GHG) emissions originate from the transportation 
sector, making it the nation's second largest source (Figure 1).\1\ 
When electricity use is distributed across sectors, transportation 
becomes our nation's largest end-use source.
---------------------------------------------------------------------------
    \1\ U.S. EPA Inventory of U.S. Greenhouse Gas Emissions and Sinks: 
1990-2006.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The contribution to global warming of the U.S. transportation 
sector is larger than any nation's entire economy, with the exception 
of China.\2\ In order to meet and preferably exceed the targets that 
scientists are calling for to avoid the worst impacts of global 
warming, it is necessary to achieve significant GHG reductions in the 
U.S. transportation sector.
---------------------------------------------------------------------------
    \2\ Greene, David L. and Schafer, Andreas. Reducing Greenhouse Gas 
Emissions From U.S. Transportation. 2003.
---------------------------------------------------------------------------
    Congress has recently taken several important steps to begin 
reducing transportation-related GHG. The 2007 Energy Independence and 
Security Act (H.R. 6) mandated new vehicle efficiency standards of 35 
miles per gallon, to be achieved by 2020, and required a 10 percent 
reduction in the carbon content of vehicle fuels. In May, President 
Obama announced an even more aggressive national vehicle efficiency 
standard that will increase fuel efficiency and reduce greenhouse gas 
emissions for all new cars and trucks sold in the United States 
beginning in 2012. By 2016, U.S. new passenger vehicle efficiency must 
average 35.5 mpg (39 mpg for cars and 30 mpg for light trucks and 
SUVs).
    Unfortunately, these critical policy tools will not fully address 
transportation-related GHG. Out current policy framework guiding the 
development of surface transportation infrastructure in the U.S. is not 
designed to take into account GHG emissions. Over the past several 
decades, while our cars have become more efficient and our fuels have 
become cleaner,\3\ transportation-related GHG emissions have continued 
to grow.\4\
---------------------------------------------------------------------------
    \3\ Transportation Energy Data Book 2008. Table 11.10: Average 
Annual Carbon Footprint by Vehicle Classification, 1975 and 2008.
    \4\ U.S. DOE, Energy Information Administration. Emissions of 
Greenhouse Gases in the United States, 2007.
---------------------------------------------------------------------------
    Growth in energy-related carbon dioxide emissions in recent years 
has mostly been the result of increased electric power generation and 
transportation fuel use. Other major sectoral emissions sources (i.e., 
direct residential, commercial, and industrial fuel use) have shown 
stable or reduced emissions.\5\ Statistics show that this has primarily 
been a result of increased use of increased personal vehicle use and 
freight trucking activity. Between 1977 and 2001, the U.S. population 
increased by 30 percent; driving rates, measured in vehicle-miles 
traveled (VMT), grew by 151 percent.\6\ In this same time period, 
average trip lengths, trips per capita, and the proportion of drivers 
traveling alone all increased to varying degrees.\7\ Freight trucking 
has seen a similar increase, with truck ton-miles growing by 56 percent 
between1993 and 2002.\8\
---------------------------------------------------------------------------
    \5\ Ibid.
    \6\ Polzin, Steven E., Ph.D. The Case for Moderate Growth in 
Vehicle Miles of Travel. 2006.
    \7\ Ibid.
    \8\ Bureau of Transportation Statistics: ``Freight Shipments in 
America,'' Table 2--Modal Change in Shipment Value, Tonnage, and Ton-
Miles: 1993 and 2002.
---------------------------------------------------------------------------
    Driven by these trends, the growth of national VMT is projected to 
continue increasing into the foreseeable future, doubling nationwide by 
2030, barring changes in policy.\9\ This is due in large part to 
limited options for transportation, inefficient land use and 
development patterns, and inadequate traffic and road management.\10\ 
As a result, despite progress on vehicle efficiency, transportation has 
for many years been the nation's fastest growing source of U.S. GHG 
emissions, accounting for 47 percent of the net increase in total U.S. 
emissions between 1990 and 2003.\11\ Though recent economic and 
demographic impacts have begun to moderate this growth trend, 
transportation remains our second fastest growing source of GHG 
emissions.\12\ Growth in energy-related carbon dioxide emissions has 
resulted largely from increases associated with electric power 
generation and transportation fuel use. All other energy-related carbon 
dioxide emissions (from direct fuel use in the residential, commercial, 
and industrial sectors) have been either flat or declining in recent 
years.
---------------------------------------------------------------------------
    \9\ U.S. Department of Energy/Energy Information Agency (USDOE/
EIA): Annual Energy Outlook, 2007.
    \10\ Ewing, Reid, Pendall, Rolf, and Chen, Don. Measuring Sprawl 
and It's Impact. 2002.
    \11\ U.S. EPA, accessed at http://www.epa.gov/omswww/climate/
index.htm on 6/30/09.
    \12\ U.S. DOE, Energy Information Administration. Emissions of 
Greenhouse Gases in the United States, 2007.
---------------------------------------------------------------------------
    Analyses of emissions trends in the transportation sector show that 
additional GHG emissions from the projected growth in driving will 
overwhelm the GHG emissions reductions expected to occur as a result 
these policies (Figure 2), unless there are changes in policy. This 
will leave overall transportation-sector GHG emissions to 26 percent 
greater than 1990 levels in 2030.\13\ Transportation-related emissions 
need to be at least 30 percent below 1990 levels to be on a 
commensurate path toward the reduction targets necessary to avert the 
worst global warming impacts. Congress must enact policies that 
moderate the growth of VMT and improve efficient transportation system 
management or the transportation-related GHG emissions from increased 
CAFE standards and low carbon fuel requirements will be effectively 
undermined.
---------------------------------------------------------------------------
    \13\ Winkelman, Steve. Center for Clean Air Policy. 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    In addition to policies such as vehicle efficiency and low-carbon 
fuel standards, Congress has spent much time debating the 
implementation a cap-and-trade system for reducing GHG across the U.S. 
economy. Environmental Defense Fund and ITDP both strongly support 
efforts to cap carbon emissions at the Federal level as a necessary 
framework for slowing climate change. While a market-based system for 
reducing GHG emissions can be a powerful tool for cost-effectively 
reducing overall emissions, analysis of travel behavior and price 
sensitivity has led many transportation and climate policy experts to 
conclude that we should not expect a cap-and-trade policy to bring 
about an efficient reduction in transportation-related GHG 
emissions.\14\ Complementary transportation policies that make the 
operation of existing transportation system more efficient and that 
provide Americans with more efficient transportation options are both 
needed to accomplish this goal, especially in the long run.\15\
---------------------------------------------------------------------------
    \14\ Greene, David L. Ph.D. Oak Ridge National Laboratory. 
Testimony to the Senate Environment and Public Works Committee, June 
2008.
    \15\ Ibid.
---------------------------------------------------------------------------
Public Transit and Climate Change: A Key (and Missing) Solution
    Travel by personal vehicle, which makes up the majority of U.S. 
travel, is among the least efficient passenger travel modes. As a 
result, 62 percent of transportation-related GHG emissions are due to 
gasoline consumption in personal vehicles (an additional 19 percent 
come from freight trucks).\16\
---------------------------------------------------------------------------
    \16\ U.S. EPA Inventory of U.S. Greenhouse Gas Emissions and Sinks: 
1990-2003.
---------------------------------------------------------------------------
Public Transit is a Clean Transportation Solution
    Public transportation, on the other hand, is one of our most 
efficient modes of passenger travel (Figure 3).
Figure 3.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Existing public transportation in the United States is already 
making significant contributions toward GHG emissions reduction. In 
2005, public transportation reduced CO<INF>2</INF> (the main GHG) 
emissions by 6.9 million metric tons.\17\ This includes both emissions 
reductions from reduced VMT, as well as emissions reductions resulting 
from reduced traffic congestion. On average, transit reduces nationwide 
CO<INF>2</INF> emissions by 37 million metric tons each year. This is 
equivalent to the combined household electricity use of New York City, 
Washington, D.C., Atlanta, Denver, and Los Angeles.\18\
---------------------------------------------------------------------------
    \17\ Davis, Todd and Monica Hale. ``Public Transportation's 
Contribution to U.S. Greenhouse Gas Reduction.'' SAIC. September 2007.
    \18\ The Broader Connection between Public Transportation, Energy 
Conservation and Greenhouse Gas Reductions, ICF International. 2008.
---------------------------------------------------------------------------
    Expanding and improving public transportation options is an 
important strategy to build on these achievements and continue reducing 
transportation-related GHG. At the local level, this means developing 
transit systems such as bus rapid transit, rapid bus service, heavy 
rail, light rail, commuter rail, van pools, and flexible paratransit 
and bus services. For longer-distance intercity travel, especially for 
trips between 50 and 500 miles, passenger rail, such as the service 
provided by Amtrak and several State departments of transportation, and 
intercity coach buses are energy-efficient options that can help reduce 
the GHG emissions of long-distance travel. A key to achieving the 
highest energy efficiency is effective utilization of capacity. Largely 
empty vehicles are less efficient.
    Policies to expand and improve public transportation and other 
efficient transportation modes, such as passenger and freight rail, are 
critical to reducing transportation-related GHG emissions. There is 
great potential for further emission reductions; a single commuter can 
reduce their CO<INF>2</INF> emissions by on average 20 pounds per day, 
or more than 4,800 pounds annually, by commuting on public 
transportation instead of driving.\19\ If transit ridership in the U.S. 
were to double by 2020, transportation-related GHG emissions would fall 
by 83 million metric tons each year. Tripling ridership by 2020 would 
cut annual GHG emissions 141.9 million metric tons per year by 2020, 
representing an 8 percent reduction in transportation sector 
emissions.\20\
---------------------------------------------------------------------------
    \19\ Ibid.
    \20\ American Public Transportation Association calculations.
---------------------------------------------------------------------------
    Demand for this level of public transportation service is real and 
growing. Between 1995 and 2008, growth of public transportation 
ridership has grown significantly faster than both highway travel and 
population.\21\ Public transportation has also seen significant 
innovation and development in recent years, allowing a greater number 
and variety of communities across America to offer efficient transit 
service for residents. In a recent report titled Reinventing Transit: 
American Communities Finding Smarter, Cleaner, Faster Transportation 
Solutions, Environmental Defense Fund highlights eleven case studies 
that demonstrate this trend. In urban, suburban, exurban, and rural 
communities, cutting edge transit technologies and operations have been 
implemented cost effectively and quickly, enhancing mobility and 
reducing harmful emissions.
---------------------------------------------------------------------------
    \21\ American Public Transportation Association statistics.
---------------------------------------------------------------------------
    As local and State governments continue to innovate and seek to 
expand transit service tailored to community needs, the Federal 
Government should keep pace to support and encourage them. As Congress 
works to reform our surface transportation policy, it should promote 
greater transit equity. This means ensuring that State and local 
officials can make transportation investments on a level playing field, 
including parity in procedural requirements for obtaining Federal 
grants as well as equal access to Federal matching funds. Today local 
officials seeking to invest in a transit project typically must put up 
one dollar of local match for every dollar of Federal funds, while 
garnering four dollars of Federal funds for every dollar of local match 
if they are seeking to invest in a new or wider road. Today major 
transit capacity expansion projects face a much higher set of 
regulatory hurdles to win Federal support while highway capacity 
expansion projects face much lower regulatory hurdles. As a result, 
Federal transportation policy implicitly favors expansion of roads over 
expansion of transit, exacerbating GHG emissions growth, since in the 
long run added road capacity induces more travel and GHG pollution, 
while transit investment increases transportation system GHG 
efficiency.
The Connection to Livable Communities
    Public transportation is a more efficient mode of travel, but the 
potential of public transportation to cut GHG emissions is much greater 
than the mere difference in emissions between transit travel and 
highway travel on passenger-mile basis. Public transportation 
infrastructure also helps facilitate more GHG-efficient land use and 
development patterns, which substantially increase the net reduction in 
transportation-related GHG emissions over time.\22\
---------------------------------------------------------------------------
    \22\ The Broader Connection between Public Transportation, Energy 
Conservation and Greenhouse Gas Reductions, ICF International. 2008.
---------------------------------------------------------------------------
    In addition to incorporating more transportation options, including 
transit, such ``livable communities'' allow families to live closer to 
their daily needs such as schools, jobs, shopping, recreation, health 
care, and other services. This has a compounding effect on reducing GHG 
emissions by reducing the overall amount that people must drive in four 
key ways. In addition to allowing people to use efficient public 
transportation for some of their travel needs, livable communities also 
reduce the length of car trips that are taken, cut down on vehicle-
hours of travel due to less traffic congestion, and eliminate the need 
for some motor vehicle trips altogether. For example, according to the 
Center for Transit Oriented Development, of Americans who live near 
public rail transit, 33 percent regularly use it, and 44 percent also 
regularly travel by walking or cycling.
    The impact on GHG emissions of transit service paired with the 
efficient land use patterns of livable communities has been 
conservatively estimated at three to four times the direct effect of 
transit service.\23\ As Chairman Dodd and other members of the Banking 
Committee have noted in recent hearings, strategies to increase transit 
service and foster the growth of more livable communities can help to 
reduce transportation-related GHG emissions while enhancing mobility, 
affordability, and quality of life.
---------------------------------------------------------------------------
    \23\ Ibid.
---------------------------------------------------------------------------
    A major study published in 2008 entitled Growing Cooler: The 
Evidence on Urban Development & Climate Change, looked deeper into this 
question. This landmark study surveyed decade's worth of data related 
to travel behavior and development patterns, and found that 
implementing the efficient development strategies that make up livable 
communities in a portion of new growth could slow travel growth and 
associated GHG emissions by 12-18 percent in metropolitan areas and 10-
14 percent nationally by 2050.\24\ The authors concluded that achieving 
this level of reduction is achievable with changes in development 
patterns alone, excluding complementary measures such as transportation 
pricing or significant expansions of public transit service. In 2030, 
such a scenario would yield GHG reductions of 80 million metric tons of 
CO<INF>2</INF>, equal to half the cumulative savings of a 35 mile per 
gallon fuel economy standard.
---------------------------------------------------------------------------
    \24\ Ewing, Bartholomew, Winkelman, Walters, and Chen. Urban Land 
Institute, 2008.
---------------------------------------------------------------------------
    The study also documents the demographic and market trends that 
make this scenario a realistic goal in the next several decades. 
Altogether, the results of the study showed that such a package of 
complementary policies can have a significant impact on transportation-
related GHG emissions. Given convenient alternatives at reasonable 
costs, Americans will take advantage of more efficient travel options 
in their communities, choosing to drive less.\25\ Aggregated 
nationwide, this could yield a profound reduction in transportation-
sector GHG, making it more likely that America meets economy-wide 
reduction targets. The authors calculated a transportation-related GHG 
emissions reduction potential of up to 38 percent with a comprehensive 
set of transportation and development policies, including the promotion 
of livable communities, transit expansion, and slower growth in highway 
expansion and pricing measures, not accounting for recent fuel price 
changes.
---------------------------------------------------------------------------
    \25\ Ewing, Reid et al., Growing Cooler: The Evidence on Urban 
Development and Climate Change. 2007.
---------------------------------------------------------------------------
Transit's Triple Bottom Line: Social and Economic Benefits Beyond 
        Climate Change
    While investments to improve and expand pubic transportation can 
yield significant benefits for our climate and environment, they also 
produce other benefits to society that should not be ignored. Reducing 
GHG emissions through investments in clean transportation and promotion 
of livable communities helps create jobs, lower consumer transportation 
costs, reduce overall municipal infrastructure costs, and provide local 
tax revenue and economic benefits through real estate development.
Job Creation
    A 2007 report from the University of Massachusetts, Amherst found 
that investment of $1 billion in mass transit produces an average of 
19,795 jobs, with an average annual compensation of $44,462.\26\ The 
report also found that these jobs are mainly created in the 
transportation, professional business and service, and manufacturing 
sectors, with the majority providing compensation of between $32,000 
and $64,000 annually.
---------------------------------------------------------------------------
    \26\ Pollin and Garrett-Peltier, ``The U.S. Employment Effects of 
Military and Domestic Spending Priorities.'' October 2007.
---------------------------------------------------------------------------
Consumer Transportation Costs
    Transportation costs are a large part of part of most household 
budgets. However, transportation costs are lower for households in more 
livable communities with greater access to a variety of transportation 
option, including public transportation. Such households can spend less 
than 10 percent of their income on transportation, while households in 
areas without transportation options beyond auto travel can spend more 
than 25 percent.\27\ Moreover, inefficient land use patterns and 
development have been shown to increase the cost of housing by 8 
percent, or $13,000 per dwelling unit.\28\
---------------------------------------------------------------------------
    \27\ Statistics from Housing & Transportation Affordability Index 
and Realizing the Potential: Expanding Housing Opportunities Near 
Transit.
    \28\ Burchell, R. and S. Mukherji. ``Conventional Development 
Versus Managed Growth: The Costs of Sprawl.'' American Journal of 
Public Health . 93 (2003): 1534-1540.
---------------------------------------------------------------------------
Public Infrastructure Costs
    Public infrastructure costs at both the regional and State level 
have been found to be substantially lower in development that 
demonstrates traits of livability. While spending on some 
infrastructure categories may be higher, studies analyzed by the Center 
for Clean Air Policy suggest a net overall savings.\29\ In particular, 
auto-dependant and inefficient land use and development patterns can 
increase water and sewer costs by 6.6 percent and increases local road 
costs by 9.2 percent.\30\
---------------------------------------------------------------------------
    \29\ Winkelman, Bishins, and Kooshian. Cost-Effective GHG 
Reductions through Smart Growth & Improved Transportation Choices. 
2009.
    \30\ Burchell, R. and S. Mukherji. ``Conventional Development 
Versus Managed Growth: The Costs of Sprawl.'' American Journal of 
Public Health. 93 (2003): 1534-1540.
---------------------------------------------------------------------------
Local Economic Development
    One estimate by the Center for Transit Oriented Development has 
shown that $1 in public transit investment can leverage up to $31 in 
private investment. The Center for Clean Air Policy has collected 
several examples of local transit investments have borne this trend 
out.\31\ For example, Little Rock, Arkansas invested $20 million of 
public money to build a local streetcar. This investment leveraged $200 
million in private investments. Likewise, the streetcar in Tampa, 
Florida cost $60 million in public funds, but it leveraged $1 billion 
in private investments. The nation's transit success story in Portland, 
Oregon is even more compelling; the city has spent $73 million on 
streetcar service, which helped attract $2.3 billion in private 
investments within two blocks of the line, a more than 30-fold return 
on investment. Further, the city's long-term commitment to transit has 
led a local industrial fabricator to begin manufacturing streetcars in 
2008. This represented the first domestically produced modern 
streetcar; Portland's streetcars had previously been purchased from a 
company in Eastern Europe.
---------------------------------------------------------------------------
    \31\ Winkelman, Bishins, and Kooshian. Cost-Effective GHG 
Reductions through Smart Growth & Improved Transportation Choices. 
2009.
---------------------------------------------------------------------------
Restoring American Transportation and Environmental Leadership
    During much of the 20th century, America's political and business 
leadership ensured investment and steady innovation in the 
transportation sector. America was viewed by many nations as a key 
model for transportation development. But in recent years, America's 
national vision for transportation lost clarity. U.S. leadership on 
environmental issues also eroded.
    Our nation requires leadership to articulate an inspiring new 
vision and framework for transportation that will support climate, 
health, safety, equity, mobility, and economic development goals, while 
ensuring more accountable governance and system management. Without 
that, public confidence to support the required higher levels of 
transportation investment may be sorely lacking, holding America back 
from again achieving global leadership in transportation development 
and environmental protection.
    In this moment, there is much for America to learn from 
transportation best practices abroad, from Europe, Asia, and Latin 
America. The United States has begun to manufacture modern streetcars 
once produced in Eastern Europe; to adapt best practices in Bus Rapid 
Transit from cities like Bogota and Curitiba; to create Bikestations at 
transit centers as has been done for decades in Japan, Denmark, and 
Germany; to explore ways to manage street space for high productivity 
as in Singapore, London, and Stockholm; to encourage more transit 
oriented development as in Germany, Canada, and England.
    These examples provide many lessons about how transit can reduce 
GHGs. A recent ITDP-EDF study for Mexico City, for example, documented 
how a 10-corridor Bus Rapid Transit (BRT) system now being developed in 
that city will cut GHGs by 6 million metric tons by 2012.\32\ Similar 
opportunities exist worldwide in Asia, Africa, and elsewhere in the 
Americas.
---------------------------------------------------------------------------
    \32\ Modelistica, Transportation Modeling for the Analysis of 
Transportation Policies for the Metropolitan Area of Mexico City, 
Environmental Defense Fund and Institute for Transportation and 
Development Policy, New York, July 2008. Page 158.
---------------------------------------------------------------------------
    It is in the interests of all Americans for other nations to pursue 
these opportunities because transportation GHG emissions from 
developing countries like China and India are growing at an especially 
rapid pace. In 2006 transport accounted for 13 percent of global 
greenhouse gas emissions (GHG). Between 1970 and 2006, global GHG 
emissions from the transport sector increased by 130 percent. 
Transport-related CO<INF>2</INF> emissions are expected to increase a 
further 57 percent worldwide in the period 2005-2030 and transport in 
developing countries will contribute about 80 percent of this increase, 
from both passenger and freight transport.
    Congress should consider how it can foster better support for 
transit to reduce greenhouse gas emissions worldwide. The U.N. Global 
Environmental Facility has helped aid the development of BRT in Jakarta 
and Dar es Salaam. The U.S. Agency for International Development 
formerly provided similar support to promote BRT in several developing 
countries. United States foundations like Climate Works are financing 
efforts to promote low carbon transportation in China, India, and the 
Americas. New carbon finance mechanisms that will be developed to guide 
international climate policy in future years could help advance sound 
transit and livable community development across the world. But this 
will happen only if more attention is paid to the key role 
transportation plays in determining future global greenhouse gas 
emissions and if the large co-benefits of transportation investments 
that reduce GHGs are recognized in cost analysis.\33\
---------------------------------------------------------------------------
    \33\ Bellagio Declaration on Transportation and Climate Change, May 
2009, http://www.sutp.org/bellagio-declaration/.
---------------------------------------------------------------------------
Conclusion and Recommendations
    Expanded and improved public transportation is a critical tool for 
addressing climate change in the United States and around the world. 
Combined with strategies to enhance the livability of our communities 
and manage our existing transportation system, transit offers a 
powerful tool for addressing one of the most significant domestic 
sources of GHG emissions and could help address the growing global GHG 
problem.
    To ensure transit and transportation policies contribute to their 
full potential to cost-effective, timely GHG reduction, Congress 
should:

  1)  Restructure Federal transportation funding programs into 
        performance-driven formula-based system preservation and 
        competitive capacity expansion programs, as recommended by the 
        Bi-Partisan Transportation Commission \34\ and Transportation 
        for America;\35\

    \34\ National Transportation Policy Project, Performance Driven: A 
New Vision for U.S. Transportation Policy, BiPartisan Policy Center, 
Washington, DC, June 2009.
    \35\ Transportation for America, The Route to Reform: Blueprint for 
a 21st Century Federal Transportation Policy, Washington, DC, May 2009. 
http://t4america.org/blueprint.
---------------------------------------------------------------------------
  2)  Lower regulatory and procedural barriers to expansion and 
        improvement of transit systems, speeding the process of 
        delivering and financing well-designed transit projects while 
        encouraging innovation in transit system design and operations 
        planning, such as bus rapid transit and para-transit;

  3)  Ensure that transportation plans and programs contribute 
        proportionately with other sectors to meet GHG goals by tying 
        funding to performance and ensuring modal and operational 
        alternatives that advance timely achievement of national goals 
        are considered in the transportation planning process;

  4)  Support initiatives for livable communities such as the 
        livability partnership formed by the Obama administration, as 
        well as forthcoming livable communities legislation recently 
        mentioned by Senator Dodd;

  5)  Ensure U.S. foreign assistance and trade promotion programs, 
        carbon finance initiatives, and climate negotiation policies 
        give attention to strategies that boost GHG efficient 
        transportation and urban development and enhance the 
        institutional capacity of governments and the private sector to 
        work together to advance these strategies.

    Thank you for your attention. I would be happy to respond to any 
questions.
                                 ______
                                 
                PREPARED STATEMENT OF CLINTON J. ANDREWS
       Professor, Urban Planning and Policy Development Program,
   Bloustein School of Planning and Public Policy, Rutgers University
                              July 7, 2009
    Good morning Chairman Menendez, Ranking Member Vitter and members 
of the Committee. Thank you for inviting me to testify today. My name 
is Clinton Andrews and I am a professor at Rutgers, The State 
University of New Jersey. For the past 6 years, I have been privileged 
to direct the University's urban planning program, which is part of the 
Edward J. Bloustein School of Planning and Public Policy.
    My testimony discusses the role that transit can play in reducing 
greenhouse gas emissions and addressing climate change. I want to make 
three points here, as follows:

  <bullet>  The problem of global warming is large enough that it 
        requires sustained efforts on multiple fronts, and transit is 
        definitely one of those fronts.

  <bullet>  To be cost-effective, transit projects should be tailored 
        to local conditions, settlement patterns, and unmet demands.

  <bullet>  There are many additional reasons to enhance the viability 
        of the transit option in the nation's transportation system 
        beyond its greenhouse gas reduction benefits.

    In what follows I elaborate upon each of these points.
Transit as part of a portfolio of global warming solutions
    The U.S. economy produces 21 percent of the world's greenhouse gas 
emissions, with 28 percent of U.S. emissions due to the transportation 
sector.\1\ We know with confidence that: (1) global warming is already 
underway; (2) human activities are a key driver of this climate change; 
(3) the effects of other air pollutants are actually masking the extent 
of the global warming to date; (4) the trajectory of future greenhouse 
gas emissions indicates that some fairly dire scenarios are plausible; 
and (5) the impacts on human health, food and fiber production, coastal 
areas, water availability, and ecosystem health will scale upwards with 
the trajectory of emissions.\2\
---------------------------------------------------------------------------
    \1\ Energy Information Administration, U.S. Department of Energy. 
2008. Emissions of Greenhouse Gases in the United States 2007. Report 
DOE/EIA-0573(2007). Downloaded on July 3, 2009 from www.eia.doe.gov/
oiaf/1605/ggrpt.
    \2\ Intergovernmental Panel on Climate. 2007. Climate Change 2007: 
Synthesis Report, Summary for Policymakers. Downloaded July 3, 2009 
from www.ipcc.ch. 
---------------------------------------------------------------------------
    This scientific consensus has spurred policy action in many U.S. 
States: to date 22 States have established greenhouse gas emissions 
targets, 36 States have completed or are working on climate change 
action plans, and 48 States have completed greenhouse gas 
inventories.\3\ The Federal Government is also beginning to respond to 
the problem of climate change by complementing its longstanding support 
of research with specific, practical policies of the sort that passed 
the House last month and are being discussed here today.
---------------------------------------------------------------------------
    \3\ Pew Center on Global Climate Change. 2009. State Action Maps. 
Downloaded on July 3 from www.pewclimate.org.
---------------------------------------------------------------------------
    There are three main types of greenhouse gas emission-reduction 
options: using energy much more efficiently or more frugally, switching 
to low-carbon and no-carbon energy sources, and sequestering carbon in 
natural sinks such as trees and soil or by means of geo-engineering 
techniques. In transportation, we can achieve energy efficiency by 
increasing vehicular miles per gallon, or reducing vehicle miles 
traveled by (1) changing settlement patterns, (2) altering the 
structure of travel demand such as with telecommuting, or (3) shifting 
to other modes including transit, walking, biking. None of these 
options can do the whole job, and hence there is a need for a multi-
pronged approach to the problem.\4\
---------------------------------------------------------------------------
    \4\ Stephen Pacala and Robert Socolow. 2004. Stabilization wedges: 
Solving the climate problem for the next 50 years with current 
technologies. Science (13 August) 305 (5686): 968-972.
---------------------------------------------------------------------------
    The United States should be, and is, pursuing energy efficiency and 
renewable energy and next-generation nuclear power and re-growing its 
forests. The appropriate analogy is to a portfolio of investments, in 
which the Nation balances risks and returns overall, by choosing a 
diverse mix of solutions with complementary strengths and weaknesses.
    For the transportation sector, this boils down to pursuing higher 
miles per gallon and lower carbon emissions per gallon, biofuels and 
electric vehicles, private vehicles and public transit, smarter long-
distance networks and more walkable neighborhoods. While it is tempting 
to demand a marginal analysis that asks ``what single choice is most 
cost-effective?,'' there is no universal answer to that question that 
applies nationwide and for all time. So it is appropriate to delegate 
some--but not all--of these decisions to the States and MPOs, and to 
the marketplace.
    There remains a clear role for the Federal Government to collect 
data that measures the performance of the transportation sector, fund 
research to expand our range of low-carbon mobility options, 
aggressively drive vehicle fuel efficiency standards in the right 
direction, continue to support State and local transportation 
infrastructure investments on a matching basis, help coordinate and 
fund interstate transportation initiatives, and encourage utilities and 
private actors to establish the necessary infrastructures (such as the 
smart grid) that are preconditions for fruitful competition among 
gasoline, biofuels, electricity, and even hydrogen as alternative 
transportation fuels.\5\
---------------------------------------------------------------------------
    \5\ Clinton Andrews. 2006. Formulating and implementing public 
policy for new energy carriers. Proceedings of the IEEE (October) 
94(10): 1852-1863.
---------------------------------------------------------------------------
Roles for regional transportation planning agencies
    States and MPOs can play key roles in decarbonizing the U.S. 
transportation sector by developing locally appropriate portfolios of 
solutions. It is only in the context of specific timeframes, settlement 
patterns, transportation networks, and natural resource endowments that 
one can identify which solutions are most cost-effective.
    To illustrate the variation in baseline emissions, and therefore, 
suitable solutions, I will share results of a study we recently 
performed in New Jersey. Moving along a gradient from rural to urban, 
we see decreasing per-capita transportation-related greenhouse gas 
emissions, with towns served by commuter rail systems having lower 
emissions than towns having similar population densities but lacking 
that option.\6\ Table 1 shows the numbers for a few illustrative towns. 
Access to rail service coincides with a 10-15 percent reduction in per-
capita greenhouse gas emissions for a given settlement pattern, and a 
change in settlement patterns from exurb to suburb to city ties to even 
larger emissions reductions from the transportation sector.
---------------------------------------------------------------------------
    \6\ Clinton Andrews. 2008. Greenhouse gas emissions along the rural 
to urban gradient. Journal of Environmental Planning and Management 
(November) 51(6): 1-20.

    Table 1: Illustrative GHG Emissions per Capita along the Rural-to-Urban Gradient  (Source: Andrews 2008)
----------------------------------------------------------------------------------------------------------------
                                               Per-capita
                                             transportation-
                                           related greenhouse    Population density   Is there a railway station
         New Jersey Municipality              gas emissions      (persons per square            in town?
                                            (metric tons CO2-           mile)
                                          equivalent per year)
----------------------------------------------------------------------------------------------------------------
  Exurb:
Woolwich................................                  3.74                   145  No
  Post-war suburb:
East Brunswick..........................                  3.21                 2,130  No
Cherry Hill.............................                  2.81                 2,885  Yes
  Inner-ring suburb:
Highland Park...........................                  2.81                 7,614  No
Montclair...............................                  2.44                 6,184  Yes
  City:
Hoboken.................................                  1.23                30,239  Yes
----------------------------------------------------------------------------------------------------------------

    These cross-sectional results suggest correlation but do not 
confirm causation, so they are by no means definitive. However, there 
are many other studies with similar findings that allow us to be 
confident that transit already plays a role in reducing greenhouse gas 
emissions.\7\
---------------------------------------------------------------------------
    \7\ For a good survey of this literature see Reid Ewing, Keith 
Bartholomew, Steve Winkelman, Jerry Walters, and Don Chen with Barbara 
McCann and David Goldberg. 2008. Growing Cooler: The Evidence on Urban 
Development and Climate Change.  Washington, DC: Urban Land Institute. 
See also Jared VandeWeghe and Christopher Kennedy. 2007. A spatial 
analysis of residential greenhouse gas emissions in the Toronto Census 
Metropolitan Area. Journal of Industrial Ecology  11(2): 133-144. Also 
see Jonathan Norman, Heather MacLean and Christopher Kennedy. 2006. 
Comparing high and low residential density: Life-cycle analysis of 
energy use and greenhouse gas emissions. Journal of Urban Planning and 
Development (March) 132(1): 10-21.
---------------------------------------------------------------------------
    In the short run, local and regional transportation planners must 
work with the settlement patterns they have. Empty buses and trains are 
not greenhouse gas-efficient or cost-effective. Regional public policy 
can help build demand in marginal locations by providing targeted 
incentives such as transit passes for students, but there are limits.
    The policy prescription for the area near exurban Woolwich is not 
to build a light rail system because it lacks the population density to 
make such a system viable. It can make more progress by getting kids to 
bike to school, and getting adults to car-pool or commute by bus. The 
policy prescription for the region near a post-war suburb like East 
Brunswick would be similar, although it might also be able to support a 
bus rapid transit system along its commercial strip. An inner-ring 
suburb like Highland Park has the density to support a shuttle bus or 
bus rapid transit stops linking to nearby train stations and employment 
centers. A city like Hoboken can--and does--support rail transit. This 
implies that MPOs and other regional planning organizations must engage 
with the land-use planners and urban designers in selecting which 
transportation--and which transit--investments are appropriate for each 
context.
    In the longer run, problems of low ridership often disappear and 
transit investments can actually catalyze growth, based on the 
experience to date with transit-oriented developments.\8\ However, a 
hard-nosed public policy would more often build transit in response to 
demand rather than ahead of it. This suggests that the marginal transit 
investment dollar should target existing and obvious capacity 
constraints such as the needed additional rail tunnel under the Hudson 
River connecting New Jersey and New York.
---------------------------------------------------------------------------
    \8\ Key references include: Cervero, R., Murphy, S., Ferrell, C., 
Goguts, N., Tsai, Y-H., Arrington, G. B., et al. 2004. Transit-oriented 
development in the United States: Experiences, challenges, and 
prospects (TCRP Report No. 102). C. Gorewitz et al. 2006. Communicating 
the benefits of TOD: The city of Evanston's transit-oriented 
redevelopment and the Hudson Bergen light rail transit system.  
Retrieved July 19, 2007 from http://www.policy.rutgers.edu/vtc/tod/
Communicating_Benefits_TOD.pdf. Nelson-Nygard Associates. 2006. MTC's 
Resolution 3434 Transit-Oriented Development Policy interim evaluation 
(Report prepared for the Metropolitan Transportation Commission). 
Retrieved October 28, 2007, from http://www.mtc.ca.gov/planning/
smart_growth/tod/TOD_Policy_Evaluation.pdf. 
---------------------------------------------------------------------------
    Adaptation of transit systems to climate change is another key 
responsibility for regional transportation planning agencies. Much 
transit infrastructure is vulnerable to sea level rise, coastal or 
riverine flooding, and equipment failure due to high temperatures. 
Existing facilities need hardening, and more precise elevation data are 
needed to help plan new facilities.
    In sum, transit serves as a core climate change solution. However, 
the specific type of transit and appropriate level of investment varies 
by locality, implying that more decisionmaking authority over the 
allocation of funds among modes should devolve to the regional planning 
agencies. Each such agency should be expected to create and follow a 
greenhouse gas action plan that guides investment priorities in a way 
that reflects national greenhouse gas emission reduction targets, 
regional network needs, local land use patterns, and adaptation 
requirements.
Other reasons to encourage transit
    There are many other good reasons for encouraging transit. This is 
well-trodden ground, so I will not be lengthy. Transit reduces road 
congestion, delays, accidents, and pollution. Transit stabilizes and 
increases property values. Transit provides mobility options for 
children, the elderly, and others who cannot drive or afford a car. 
Transit helps people live more actively, thereby reducing obesity and 
related health problems.\9\ Transit offers scale economies that are 
unavailable in other transportation modes. Transit improves energy 
security because its rolling stock can be readily converted to non-
petroleum fuels. A recent, and very rigorous, economic analysis of the 
net internal and external benefits of transit has concluded that 
current subsidies to transit in U.S. cities are far below their optimal 
levels.\10\ In other words, transit is under-supported in the United 
States.
---------------------------------------------------------------------------
    \9\ Cross-national comparisons show a clear inverse relationship 
between the prevalence of obesity and the percent of trips taken by 
non-automobile modes (transit, walking and biking). See David Bassett, 
Jr., John Pucher, Ralph Buehler, Dixie Thompson, and Scott Crouter. 
2008. Walking, Cycling, and Obesity Rates in Europe, North America, and 
Australia. Journal of Physical Activity and Health 5, 795-814.
    \10\ Ian Parry and Kenneth Small. 2009. Should urban transit 
subsidies be reduced? American Economic Review 99(3): 700-724. They 
find that the external benefits of transit are not internalized until 
fares are set substantially below 50 percent of operating costs.
---------------------------------------------------------------------------
Conclusions
    As the Senate prepares to address the problem of global warming and 
as it considers how to finance the nation's future transportation 
infrastructure needs, I urge you to keep transit in mind. Transit 
brings multiple benefits and deserves greater support than it currently 
receives. Transit can cost-effectively help reduce greenhouse gas 
emissions, provided the projects are tailored to local conditions and 
land uses. The Federal Government should direct regional transportation 
planning agencies to do greenhouse gas action planning for 
transportation--and within that, transit--that pursues both mitigation 
and adaptation objectives. Finally, I believe the funding should follow 
the planning. Thank you for the opportunity to testify today.
                                 ______
                                 
               PREPARED STATEMENT OF CHRISTOPHER CABALDON
  Mayor, City of West Sacramento, California , and Transportation Vice
             Chair, Sacramento Area Council of Governments
                              July 7, 2009
    Chairman Menendez and Members of the Subcommittee: Thank you for 
the opportunity to appear before you today to discuss how public 
transportation can be a critical lever for significant progress toward 
our nation's climate and energy objectives.
    The Sacramento Area Council of Governments (SACOG) represents 6 
counties, 22 cities and a population of 2.3 million people in the 
region surrounding California's Capitol. We are representative of the 
economic, social, and industrial diversity of the nation, with a rural 
agricultural sector worth nearly $2 billion annually.
    In 2002, the SACOG Board of Directors adopted a Metropolitan 
Transportation Plan 2025 (MTP). I chaired the broad-based stakeholder 
roundtable which wrote that plan, and we faced the competing demands 
you might expect. Business interests wanted us to put our money into 
roads and bridges, neighborhood groups pushed instead for sidewalks and 
bike lanes, and environmentalists and bus riders demanded that we go 
all-in for public transit.
    We decided to model their ideas in the extreme. What would our 
region look like, and what would it live like, if we spent virtually 
all of our money for two decades on just roads? What about just 
transit? Or just sidewalks? I must tell you that we thought we were 
creating straw men to help shoot down the partisans at the edges. An 
all-roads scenarios might reduce congestion but blanket our air in 
poison, while the other options should have slowed congestion to total 
gridlock even if they improved air quality.
    But here's Big Lesson #1: extreme investment strategies produced 
the same outcomes. There was virtually no significant difference in 
performance on congestion, travel time, vehicle miles traveled, or 
emissions. Why? Because transportation investments must be tightly 
coupled with changes in land-use in order to make any sort of 
difference. But when the two are married, the impact is powerful.
    We ramped up investment in transit and other alternative modes in 
that 2002 transportation plan, but, more importantly, we learned that 
Big Lesson #1 and immediately got to work on the next-generation plan 
that would integrate the full range of policies AND investments 
necessary to reduce both travel time and emissions. At the same time, 
we wanted to arrest the ex-urban sprawl that was sapping vitality from 
the cores of our cities and towns while consuming prime farmland at an 
alarming rate.
    In 2008 SACOG adopted an MTP 2035 that performed significantly 
better than the prior plan on virtually every indicator, including 
transit ridership, vehicle miles traveled, congestion, air quality and 
greenhouse gas emissions. Between those two plans, SACOG adopted a 50 
year Blueprint growth strategy for the region that provided the needed 
technical analysis capabilities, political support and smart growth 
planning strategies to optimize system performance through integrated 
land use, transportation and air quality planning. I chaired SACOG for 
the Blueprint, and we achieved universal consensus on the boldest 
regional transportation and land use plan in the nation. In doing so, 
we learned Big Lesson #2: four key policy outcomes--greenhouse gas 
reductions, urban revitalization, farmland preservation, and 
transportation mobility-can be achieved only in concert with one 
another. That's why the plan was heralded and embraced by business, 
housing, transit, environmental, and social justice advocates, and won 
awards from U.S. EPA and two California Governors. That's why it is now 
the official model for the State of California and for regions of every 
type and scale. And public transportation is the plan's critical 
linchpin.
    Through this process SACOG has learned a great deal about the very 
close connections between increased transit ridership and: land use 
patterns, air quality and overall transportation system performance. 
The table below provides the short story of the improvements we will 
realize by 2035 through the MTP we adopted in 2008 compared to the MTP 
we adopted in 2002. The MTP we adopted in 2008 significantly increased 
investments in transit and focuses much more growth into transit 
corridors. As a result transit service hours and boardings will grow 
dramatically. Transit trips grow at an average annual rate of 4 
percent, more than double the population growth rate. The growth rate 
for commute transit trips is even higher, nearly 8 percent.
    Overall transit productivity (boardings/service hour) will increase 
substantially. This will improve the fare-box recovery rate for transit 
operators and widen the margin of fossil fuel energy savings realized 
by transit versus automobile travel. The big win: Greenhouse gas 
emissions and vehicle miles traveled per capita decline instead of 
increase or stay constant, breaking a decades- long trend that regions 
throughout the country have experienced. With the transportation sector 
accounting for such a large share of greenhouse gas emissions, we 
cannot avert catastrophic climate change without forcing an absolute 
decline in vehicle miles traveled.
    Increased transit ridership also provides major benefits to 
automobile drivers. The amount of time people have spent sitting in 
their cars in congested traffic has risen significantly over the past 
several years. Our 2008 MTP essentially breaks that trend as well, 
reducing the time people spend in congestion in 2035 from a 114 percent 
increase to just a 16 percent increase. There are many reasons for 
this, but targeted transit investments is one of the most important. 
Our state-of-the-art modeling indicates that we realize approximately a 
10 percent reduction in congestion for every 1 percent of total trips 
that we are able to shift from cars to transit. This is because much of 
the increase in transit ridership we are forecasting is for commute 
trips, which are longer and occur during the peak, most congested, 
hours. When your roadways are at capacity, shifting even relatively 
small percentages of total trips out of cars and onto transit produces 
large benefits to all users of the system. It also reduces greenhouse 
gas emissions because stop and go, slow moving traffic creates more 
greenhouse gas emissions than moderate speed smoothly flowing traffic.


------------------------------------------------------------------------
                                                2035  (2002  2035  (2008
         Percent Change from 2005 in:               MTP)         MTP)
------------------------------------------------------------------------
Transit Service Hours.........................        +111%         +28%
Transit Boardings.............................         +98%        +184%
Transit Productivity..........................          +6%         +35%
Greenhouse Gas Emissions/Capita...............           0%         - 8%
Weekday Vehicle Miles Traveled/Capita.........          +1%         - 6%
Congested Vehicle Miles Traveled/Capita.......        +114%         +16%
------------------------------------------------------------------------

    In California we are in the midst of implementing the nation's most 
comprehensive law linking regional transportation, land use, housing 
and climate change planning. SB375 was sponsored by California Senate 
Pro Tem Darrell Steinberg--Sacramento, and patterned after the SACOG 
Blueprint. The bill was signed by Governor Schwarzenegger last fall. 
The law is follow-up legislation to AB32, the California Global 
Solution Act, which requires us to reduce total greenhouse emissions 
levels by 2020 to 1990 levels. SB375 requires regional planning 
agencies like SACOG to meet greenhouse gas emissions targets for 2020 
and 2035 that will be set by the California Air Resources Board. As 
part of our preparations for meeting the provisions of SB375 SACOG has 
prepared a TOD (transit oriented development) scenario for 2020 that 
makes further improvements on both the smart growth land use pattern 
and the transit investments compared to our adopted 2008 MTP. 
Specifically, the scenario shifts an additional 15 percent of the 
growth in our 2008 plan from ex-urban and rural areas into transit 
corridors, and it expedites the construction of the 2035 transit system 
to 2020.
    The data in the table below clearly suggest that even greater 
performance improvements are possible if land use patterns and funding 
for transit improves. In the 2020 TOD Scenario greenhouse gas emissions 
per capita decline more by 2020 than they do by 2035 in our current 
MTP. That's Big Lesson #3: substantial, quantifiable reductions in per 
capita greenhouse gas emissions can be achieved through a combination 
of land use and investments in transit. Congested vehicle miles 
traveled per capita is also better, only a 2 percent increase from 
current conditions.


------------------------------------------------------------------------
                                            2020  (2008     2020  (TOD
      Percent Change from 2005 in:             MTP)          Scenario)
------------------------------------------------------------------------
Transit Service Hours...................            +39%           +184%
Transit Boardings.......................            +64%           +247%
Transit Productivity....................            +11%            +38%
Greenhouse Gas Emissions/Capita.........            - 4%            - 9%
Weekday Vehicle Miles Traveled/Capita...            - 2%            - 6%
Congested Vehicle Miles Traveled/Capita.            +21%             +2%
------------------------------------------------------------------------

    Which brings me to Big Lesson #4: transit investments must occur 
early if they are to effectively stimulate the shift in land use 
patterns to build substantial amounts of transit oriented development 
(higher density, mixed use, walkable development near high quality 
transit service). Expecting developers to build these new products on 
the expectation that sometime in the future the funds will be 
forthcoming to put in the transit lines is not realistic. We have to 
find a way to do both at the same time. The transit and land use have a 
strong synergistic relationship that is lost if they are not done 
together.
    We don't think that building transit earlier rather than later is 
an unreasonable expectation. There is abundant evidence that citizens 
support this. Last fall, in the middle of the worst economy of our 
generation, voters in diverse places like my city, West Sacramento, Los 
Angeles, and Marin County approved substantial tax measures dedicated 
exclusively to increased transit service. The large increases in 
transit ridership and improved fare-box recovery rates that we have 
experienced locally over the past year are national trends. A 
combination of demographic, economic and social trends, along with 
changes in our built environment, create a unique opportunity for 
transit to finally be a center piece of not only our nation's 
transportation strategy, but also our aspirational energy and climate 
change strategy. We strongly encourage the Federal Government, through 
the Energy and Climate Bill, as well as the Transportation 
reauthorization and appropriations, to provide financial and policy 
support for this.
    The House bill on energy and climate change, H.R. 2454, is a good 
start in this regard. Section 222 of that measure, championed by our 
own region's Representative Doris Matsui, builds on these big lessons 
from the pioneering work at the regional scale by SACOG and many of our 
colleagues across the nation. It aligns infrastructure and 
transportation planning with greenhouse gas reduction goals, and puts a 
heavy emphasis on public transit. And it does so by giving the 
frameworks--and some catalytic funding--to States, regions, and 
communities to get the job done.
    In addition to increasing the total amount of transit investment in 
its 2008 MTP, SACOG also diversified the transit system. Transit is not 
a one-size-fits-all investment. In order to serve rural communities, a 
growing urban core, and older suburban areas alike, the Sacramento 
region is planning for a wide spectrum of services that suit particular 
needs. These include: light rail, to connect communities with high 
population and employment densities; streetcars, to connect regional 
job centers and also make it easy and simple to get around in 
pedestrian-oriented urban and town centers; regional rail and express 
buses, to accommodate long-distance commuters; dial-a-ride or 
neighborhood shuttles, for rural and suburban communities; as well as 
fixed-route service, bus rapid transit, paratransit, and subscription 
buses. In my own community, for instance, we have doubled our bus 
service and are now working to launch a streetcar system as part of our 
greenhouse gas strategy, but Federal policies have not caught up, stuck 
with a byzantine set of rules and regulations originally designed for 
massive heavy rail projects. The population is diverse and the transit 
system must recognize this.
    The key elements of the land use pattern in our 2008 MTP include 
major market shifts away from large-lot single family construction to 
small-lot single family and attached products (rowhouses, townhomes, 
apartments), increased amounts of growth through redevelopment and 
infill opportunities, especially within walking distance of existing 
and planned transit, and a new style of suburban growth that emphasizes 
mixed use and walkable neighborhoods. A number of national studies 
document that market demand is now high for urban and walkable suburban 
neighborhoods. We certainly have witnessed this in our region, with 
small-lot and attached housing products growing from 20 percent to 70 
percent market share in just the first 4 years of implementing our 
Blueprint plan. That's Big Lesson #5: citizens want to live, work, 
shop, and play in the kinds of places that transit and smart land-use 
planning can create. Expanding the choices available for consumers for 
a wider range of housing types and transportation options will allow 
them to live the lives they want and produce measurable and astounding 
reductions in our carbon footprint. It is our job to change our 
policies and investment priorities to make those choices possible, and 
in doing so we also protect our rural future and help avert 
catastrophic climate change.
    The significant commitment our region has made to smarter growth 
and smarter transportation investments has occurred because these 
concepts have broad public and political support. People from across 
the political spectrum see this type of future for our region as 
important to both our economic and environmental health. This broad 
political consensus did not happen by accident. For the better part of 
the past decade SACOG has engaged in extensive, innovative citizen and 
stakeholder outreach activities. We have conducted hundreds of 
workshops with thousands of citizens, engaging them with interactive 
computer technology and asking them to help make the decisions about 
growth patterns and transportation investments. We discovered that 
there is broad support for improving the range of housing choices, 
expanding viable transportation choices, locating jobs and housing near 
each other, and making maximum use of our existing developed areas 
instead of focusing most of our growth on lands with high agricultural 
and natural resource values that often are far away from employment and 
services.
    We very much appreciate the Committee's interest in these issues 
and our story. I would be happy to answer any questions you have and to 
provide any follow-up information that would be helpful to you.
                                 ______
                                 
                  PREPARED STATEMENT OF RANDAL O'TOOLE
                   Senior Fellow, The Cato Institute
                              July 7, 2009
    Urban transit is important for those who lack access to 
automobiles. But the history of the last four decades shows that 
transit cannot and will not play a significant role in saving energy or 
preventing climate change.
    Forty years ago, American cities were choked with air pollution, so 
Congress passed the Clean Air Act of 1970 and created the Environmental 
Protection Agency (EPA) to administer the law. The EPA adopted two 
strategies to reduce pollution. First, it required automakers to make 
cars that polluted less. Second, it also encouraged cities to promote 
transit and adopt other policies aimed at getting people to drive less.
    Today, we know what worked and what did not. Automotive air 
pollution has declined by at least two-thirds since 1970. This entire 
decline was due to technological changes in automobiles. Far from 
responding to transit investments by reducing driving and taking 
transit more, Americans today drive far more than they did in 1970. As 
the late University of California (Irvine) economist Charles Lave 
demonstrated in the October, 1979 Atlantic Monthly, investing in 
transit fails to save energy or reduce air pollution for two reasons:

  <bullet>  First, spending more money on transit does not 
        significantly reduce driving.

  <bullet>  Second, transit uses just about as much energy as cars, so 
        even if we could persuade people to take transit it would not 
        save energy (see http://www.theatlantic.com/doc/197910/197910).

    Dr. Lave's arguments are as valid today as they were in 1979, and 
as valid for greenhouse gas emissions as for energy and other 
pollutants. The difference between 1979 and today is that today we have 
much more evidence to back up Dr. Lave's points.
Transit Investments Do Not Significantly Increase Transit Ridership
    Transit subsidies have historically had only a trivial effect on 
ridership. Between 1987 and 2007, annual subsidies in real dollars grew 
by 68 percent. Yet annual ridership grew by only 18 percent. While 
capital subsidies are sketchy before 1987, operating subsidies 
increased by 1240 percent since 1970. Yet ridership grew by only 45 
percent.
    More importantly, despite total real subsidies of well over three-
quarters of a trillion dollars since 1970, per-capita transit ridership 
and passenger miles actually declined. Figure one shows that per-capita 
transit travel declined more-or-less steadily from 1970 through 1995. 
Although per-capita transit usage has grown a little since 1995, it 
remains below 1988, and far below 1970, levels.
    Moreover, as figure two shows, while per-capita transit travel was 
declining, per-capita urban driving grew by 120 percent. Transit 
carried more than 4 percent of urban travel in 1970; but it fell below 
2 percent in 1990 and now stands at 1.6 percent.
    My former hometown of Portland, Oregon has invested more than $2 
billion in light rail and streetcars. Yet this has had almost no effect 
on Portland travel habits. In 1980, before Portland built its first 
light-rail line, the census found 9.8 percent of Portland urbanized 
area commuters took transit to work. Today, Portland has four lightrail 
routes and a streetcar line, yet the Census Bureau's American Community 
Survey says only 6.5 percent of Portland commuters take transit to 
work.
    The number of Portland-area residents taking transit to work 
actually declined between 2000 and 2007. These census numbers are 
confirmed by a 100-percent census of downtown employers conducted by 
the Portland Business Alliance in 2001 through 2007. More than two-
thirds of all Portland-area transit commuters work in downtown 
Portland, but this census found that 7 percent fewer downtown workers 
took transit to work in 2007 than in 2001.
Transit Is Not Significantly Cleaner than Driving
    Even if more subsidies to transit could attract significant numbers 
of people out of their cars, it would not save energy or reduce 
greenhouse gas emissions because transit uses as much energy and 
generates nearly as much greenhouse gas per passenger mile as urban 
driving. As described in my Cato Institute Policy Analysis no. 615 
(http://www.cato.org/pubs/pas/pa-615.pdf), the following data are based 
on the Department of Energy's Transportation Energy Data Book, the 
Federal Transit Administration's National Transit Data base, and the 
Federal Highway Administration's Highway Statistics.
    In 2006, the nation's transit systems used an average of 3,444 BTUs 
and emitted 213 grams of CO<INF>2</INF> per passenger mile. The average 
passenger car used 3,445 BTUs--just 1 BTU more-and emitted 245 grams of 
CO<INF>2</INF> per passenger mile, just 15 percent more. While transit 
appears slightly cleaner than autos, as shown in figure three, auto and 
light truck energy efficiencies have rapidly improved, while transit 
energy efficiencies have declined. Since CO<INF>2</INF> emissions are 
proportional to energy consumption, these trends hold for greenhouse 
gas production as well.
    We can expect these trends to continue. If auto manufacturers meet 
the Obama administration's new fuel-economy standards for 2016--even if 
they fail to improve energy efficiencies beyond that--by 2025 the 
average car on the road will consume only 2,600 BTUs and emit only 
about 186 grams of CO<INF>2</INF> per passenger mile--considerably less 
than most transit systems (figure four).
    This rapid improvement is possible because America's auto fleet 
almost completely turns over every 18 years. By comparison, cities that 
invest in rail transit are stuck with the technology they choose for at 
least 30 years. This means potential investments in transit must be 
compared, not with today's cars, but with cars 15 to 20 years from now.
    In much of the country, the fossil-fuel-burning plants used to 
generate electricity for rail transit emit enormous amounts of 
greenhouse gases. Washington's Metrorail system, for example, generates 
more than 280 grams of CO<INF>2</INF> per passenger mile--considerably 
more than the average passenger car. Light-rail systems in Baltimore, 
Cleveland, Denver, Philadelphia, and Pittsburgh all emit more 
greenhouse gases per passenger mile than the average SUV.
    In places, such as the West Coast, that get much of their 
electricity from renewable sources, it would be wiser and more cost-
effective to apply that electricity to plug-in hybrids or other 
electric cars that can recharge their batteries at night when renewable 
power plants generate surplus energy. As Professor Lave said, the ``law 
of large proportions'' dictates that ``the biggest components matter 
most.'' In other words, since more than 90 percent of urban travel is 
by auto and only 1.6 percent is by transit, small improvements in autos 
can be far more significant than large investments in transit.
    Transit has several other disadvantages as a way of reducing 
greenhouse gas emissions. First, even where electric-powered rail 
transit generates less greenhouse gases than cars or buses, the trains 
are supported by feeder bus systems that emit lots of greenhouse gases. 
While the trunk line buses that new rail transit lines replace 
typically run fairly full, the feeder buses that support rail transit 
run fairly empty because many rail riders drive to transit stations. 
The result is that greenhouse gas emissions on many transit systems 
increase after opening rail transit lines. After opening its first 
light-rail line, CO<INF>2</INF> emissions from St. Louis' transit 
system climbed from 340 to 400 grams per passenger mile, while 
Houston's grew from 218 to 263 grams per passenger mile.
    Construction of rail transit also consumes huge amounts of energy 
and releases enormous amounts of greenhouse gases. Portland planners 
estimated that the energy cost of constructing one of the city's light-
rail lines would equal 170 years worth of energy savings.
    Highway construction also generates greenhouse gases, but because 
highways are much more heavily used than most rail transit lines, the 
emissions per passenger mile are far lower. Contrary to claims that 
rail transit can carry as many people as four or more freeway lanes, 
the New York City subway is the only rail transit line in America that 
carries more passenger miles per rail mile than one urban freeway lane 
mile. Outside of New York, the average urban freeway lane mile carries 
12 times as many passenger miles as the average commuter rail mile, 7.5 
times as many as the average light-rail mile, and 2.4 times as many as 
the average subway/elevated mile.
    Further, as we tragically learned in the recent Washington 
Metrorail crash, rail transit systems must be completely rebuilt or 
rehabilitated every 30 years or so. The energy costs and greenhouse gas 
emissions from such reconstruction must be taken into account when 
considering rail transit. As a recent Federal Transit Administration 
report calculated, rehabilitation of rail lines in the nation's seven 
largest transit systems will cost at least $50 billion--money those 
agencies don't have. This is just one more indication that rail transit 
is not financially sustainable.
    In the rare case where a transit investment really will reduce 
greenhouse gas emissions, the cost is exorbitantly high. McKinsey & 
Company says the United States can cut its greenhouse emissions roughly 
in half by 2030 by investing in technologies that cost no more than $50 
per ton of CO<INF>2</INF> equivalent. But transit investments, if they 
reduce emissions at all, do so at costs of $5,000 per ton or more.
The American Transit Model Is Broken
    Transit's poor performance is symptomatic of government-subsidized 
transit systems. Transit agencies that typically get three-quarters of 
their funds from taxpayers and only a quarter from transit users are 
politically obligated to run transit throughout their taxing districts 
no matter how few people want to use transit. The result is that the 
average transit vehicle, whether bus, light rail, subway, or commuter-
rail car, runs an average of only one-sixth full.
    Far from being short of funds, transit agencies have too much 
money, which they spend in the wrong places. Instead of providing 
economical transportation to users, they spend it on urban monuments 
such as light-rail and streetcar lines whose transportation value is 
negligibly different from buses. Agencies often go heavily into debt 
building these lines and are also obligated to huge operations and 
maintenance costs. Almost inevitably, they suffer budget crises that 
force them to significantly curtail service.
    On a passenger-mile basis, transit buses typically consume as much 
energy and emit as much CO<INF>2</INF> per passenger mile as SUVs. By 
comparison, private bus companies have an incentive to fill as many 
seats as possible, so they typically operate half to two-thirds full 
and consume little more than 10 percent as much energy per passenger 
mile as public transit buses. Between Boston and Washington, for 
example, at least 14 bus companies carry more passengers each day than 
Amtrak and do so using less than half as much energy and emitting about 
half as much greenhouse gases.
    To make transit more environmentally friendly, we need to 
completely redesign our transit systems. This means either privatizing 
transit systems or, at the least, operating them entirely out of user 
fees rather than subsidies. If States feel the need to support people 
who have no access to automobiles, they can give such people 
transportation vouchers that they can use on any public conveyances.
Transport Strategies to Reduce Greenhouse Gas Emissions
    At the same time, we can significantly reduce greenhouse gas 
emissions from automobiles without engaging in futile efforts to try to 
get people to stop driving. The Texas Transportation Institute says 
urban congestion wastes nearly 3 billion gallons of fuel each year. 
Simple, low-cost techniques to relieve this congestion can do far more 
to reduce greenhouse gas emissions than investing more in a failed 
transit model.
    One such technique is traffic signal coordination. A small 
investment in signal coordination can do more to reduce greenhouse gas 
emissions than billions invested in transit. For example, San Jose 
recently coordinated signals at 223 intersections, which reduced 
emissions by 4,200 tons per year at a cost of about $7 per ton. When 
the savings to motorists are counted, the project actually saved $200 
per ton of reduced emissions. Yet the Federal Highway Administration 
estimates that three-quarters of the nation's traffic signals are 
obsolete or have no coordination at all.
    Congestion pricing on existing HOV lanes and all new urban highways 
will also significantly reduce congestion. Looking to the future, 
accelerated investments in vehicle-to-vehicle and vehicle-to-
infrastructure communications can greatly reduce congestion and 
increase personal mobility while saving energy and greenhouse gas 
emissions.
    In short, instead of a futile effort to change American lifestyles, 
we simply need to make the form of transportation used most by 
Americans (as well as most Europeans and Japanese) even more efficient 
than it is today. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                 PREPARED STATEMENT OF ERNEST TOLLERSON
           Director, Policy & Media Relations, New York State
                 Metropolitan Transportation Authority
                              July 7, 2009
    Good Morning Chairman Menendez, Ranking Member Vitter and Members 
of the Subcommittee. I want to thank you for the opportunity to testify 
today on the major role transit networks in metropolitan areas 
throughout the United States can play in reducing carbon dioxide and 
shrinking the carbon footprint of our cities and metropolitan regions, 
home to 65 percent of Americans and the source of 75 percent of the 
nation's GDP.
    First, a brief word about the Metropolitan Transportation 
Authority. The MTA network is one of the world's largest. We provide 
8.5 million subway, bus and commuter railroad rides daily--or 2.7 
billion rides each year, accounting for nearly one-third of all transit 
riders in the nation. The MTA also operates seven bridges and two 
tunnels that carry nearly 300 million vehicles a year--the most heavily 
used bridge and tunnel system in the nation.
    We all know that there is no silver bullet that will enable this 
nation to cut carbon emissions 80 percent by 2050. We need an 
integrated set of strategies and tools, including renewable sources of 
energy, the right breakthroughs in battery technology and a smart grid. 
Transit ought to be a major part of the strategy. If new investments in 
the transit sector are used to maximize transit's carbon-cutting 
potential, the Nation can achieve its near- and long-term goals. The 
climate legislation the Senate is drafting offers an opportunity to 
fund transit networks in a way that will unlock our carbon-cutting 
potential. Unlocking it will yield more transit, greener transit and, 
most important of all, greener communities--places where the amount of 
carbon it takes to live, work and enjoy life is dramatically lower than 
it is today.
    As a sector, we are reaching the point where we can accurately 
score the climate-stabilization benefits of transit through: mode shift 
(from cars to transit); transit's role in minimizing congestion; and, 
the most powerful source of carbon-reduction, the integration of 
transit and green density (residential and commercial) around transit 
stations, which reduces trip length and frequency while encouraging 
walking and biking.
    The MTA's carbon footprint totaled 2.7 million metric tons of 
greenhouse-gas emissions in 2008. However, the greenhouse-gas emissions 
the MTA generates are offset many times over by the carbon-emissions 
the MTA helps avoid by getting people out of cars and onto subways, 
buses, bus rapid transit and commuter rail.
    For every metric ton of carbon an MTA service emits, the MTA helps 
avoid more than 8.24 metric tons of greenhouse gases, which is a 
weighted average for the MTA's 5,000-square mile region. Put another 
way, the MTA's 2008 carbon footprint of 2.7 million tons resulted in a 
net reduction of nearly 20 million metric tons (19.8 million tons). 
That's the equivalent of the carbon stored annually by a healthy forest 
of 7.7 million acres.
    Transit's full climate-stabilization benefits will only be unlocked 
if the new investment in upgrading transit infrastructure and expanding 
transit networks also encourages the clustering of green commercial and 
residential development around transit. Transit-oriented development 
offers much more than more new housing and lifestyle choices. TOD makes 
it easy to dramatically reduce the greenhouse gases produced by the way 
you live, shop, work and recreate. Throughout the US, upgrading transit 
and expanding transit is already creating green density in places many 
of you represent. It's visible in the thousands of housing units 
developed around the Hudson Bergen Light Rail line in New Jersey, the 
explosion of residential development around the MTA Metro-North rail 
station in Yonkers and in the Euclid Avenue corridor project in 
Cleveland, Ohio, a $168.4-million public investment that has attracted 
billions in private investment.
    The revised Waxman-Markey bill allocates 1 percent of the auction 
of carbon permits to transit networks. In light of the carbon-cutting 
potential of US transit agencies, especially transit's potential to 
give people the option of living in communities with fewer cars per 
household and lower auto use, the MTA and other transit agencies 
believe that allocating a larger share of auction proceeds to transit 
would enable the Nation to accelerate its efforts to reduce greenhouse 
gases. We suggest that Congress invest 7.5 percent of auction permit 
proceeds in transit, with 5 percent to increase access and expand 
transit networks and services, including:

  <bullet>  New lines, system extensions, bus rapid transit, light 
        rail, feeder and distributor services, all of which foster TOD,

  <bullet>  Signal upgrades that boost the frequency of service an 
        hour,

  <bullet>  New green fleets (buses and rail cars); and

  <bullet>  LEED standards for stations, bus depots and rail yards.

     We also suggest that you allocate 2.5 percent to green and improve 
the carbon efficiency of existing transit infrastructure, including:

  <bullet>  Smart Fleets projects (light-weighting rolling stock, 
        regenerative braking, on-board power, wayside power); and

  <bullet>  Green station renovations.

    Every day America's transit networks bring about major greenhouse-
gas reductions the old-fashioned way--through mode shift and reducing 
congestion. With the appropriate provisions in your climate bill, you 
can advance the nation's GHG-reduction goals:

  <bullet>  Expand transit's capacity to get people out of cars and 
        onto transit, and

  <bullet>  Upgrade existing transit lines and expand transit networks 
        so that transit can transform our cities and metro regions into 
        communities with low-carbon lifestyles and low-carbon places to 
        work. This solution set can be deployed now, not in five or 10 
        years.

     In short, your bill can unlock transit's potential to green the 
way we live, work and enjoy life in communities throughout the nation. 
Again, thank you for the opportunity to testify today. I'm happy to 
answer any questions you may have.

 RESPONSE TO WRITTEN QUESTION OF SENATOR MENENDEZ FROM MICHAEL 
                          A. REPLOGLE

Q.1. Your testimony reveals that we cannot reduce 
transportation emissions through technology alone, but that we 
need to provide transportation alternatives and also change 
development patterns. Some are skeptical, however, that we can 
truly change development patterns in time. Can we affect the 
change we need between now and 2050?

A.1. Did not respond by publication deadline.

Q.2.  Are there other indirect environmental benefits of 
transit oriented development? In addition to providing 
alternatives to driving is such development also inherently 
more efficient because it is more compact? Has anyone measured 
those benefits?

A.2. Did not respond by publication deadline.
                                ------                                


 RESPONSE TO WRITTEN QUESTION OF SENATOR MENENDEZ FROM CLINTON 
                           J. ANDREWS

Q.1. Professor Andrews, given your experience with statewide 
greenhouse gas target plans and regional transportation 
planning, what barriers are there to reducing transportation 
emissions and what do you think the Federal Government can do 
to help overcome those barriers?

A.1. Thank you for the opportunity to answer this follow-up 
question. My answer first addresses barriers and then offers 
suggestions for how the Federal Government could act to reduce 
greenhouse gas emissions from transportation.
Barriers
    In my view, the key barriers to reducing transportation-
related emissions in the United States are our lack of a clear 
national commitment to greenhouse gas reduction and the slow 
pace of innovation in the relevant domestic industries.
    These problems relate to one another and also tie in with 
other challenges. Specifically, dominant firms in the 
automobile, petroleum, road-building, and real estate 
industries have great incentives and abilities to defend their 
current practices and business models against change that 
might--might--favor new entrants or inconvenience current 
managers and workers. Public financing of transportation 
infrastructure is one important policy arena where this defense 
of the status quo occurs. Others include the regulatory and tax 
policies governing these industries.
    Many consumers, firms, and public officials are 
unaccustomed to thinking about the long-term consequences of 
current decisions, and they often and uncritically mix short- 
and long-range solutions to problems. In this context of short-
termism, the marketplace often fails to support solutions that 
may have a higher first cost but a lower life-cycle cost. 
Arguments about the supposed lack of cost-effective 
alternatives need reframing to emphasize a more appropriate 
definition of longer-term cost-effectiveness.
    In this growing, land-rich nation, standards of good land-
use and transportation planning are relatively immature, and 
policy debates on these topics are relatively unsophisticated. 
Settlement patterns have reflected the cheapness of our land 
and we have only recently begun to recognize the adverse, 
unintended consequences of creating automobile-dependent 
landscapes. It is time to recognize that the nation's wide-open 
spaces no longer define the lived experience of most Americans. 
Most people instead live in metropolitan areas and experience 
traffic congestion, air pollution, and unnecessarily expensive 
transportation choices.
Recommended Federal Actions
    To solve these problems, the Federal Government should 
first make a clear national commitment to reducing greenhouse 
gas emissions. Elements of this commitment eventually should 
include laws that establish carbon accounts for tracking our 
progress; regulations such as cap-and-trade that will limit 
emissions, starting with point sources; a carbon tax to 
encourage reduced emissions economy-wide; and a redirection of 
infrastructure financing to acknowledge this new, national 
objective.
    The Federal Government also should provide funding directly 
to Metropolitan Planning Organizations and their counterparts 
instead of to the States. This will reduce the rural bias that 
hinders rational, state-level transportation infrastructure 
resource allocations. This will yield more resources for under-
funded, less carbon-intensive transit, walking and biking 
infrastructures in most areas.
    The Federal Government should promote life-cycle thinking 
by mandating the use of life cycle cost analysis that assesses 
the total cost of ownership for all federally funded projects. 
This requirement will help tilt financial decisionmaking toward 
a longer-term perspective that accounts for greenhouse gas 
emissions policies and adaptation to climate change.
    The Federal Government should reduce the reasons for 
affected industries to defend the status quo. Make tax credits 
for research and development, and for investment, more 
permanent. Enact social policies that better protect workers 
from the consequences of disruptive change, by making health 
insurance and pensions transferable, and by providing personal 
incentives for education and retraining.
    The Federal Government should symmetrically reduce the 
ability of beneficiaries of the status quo to defend their 
privileged positions. Most important are good government 
reforms that reduce the financial roles of lobbyists and 
special interests in political decisionmaking and increase the 
transparency of political and administrative decisions.
    Finally, the Federal Government should undertake a 
systematic initiative to improve the quality of the U.S. built 
environment. Most important, there should be additional support 
for evaluation research to assess the performance--and 
unintended consequences of--major transportation projects, land 
use regulations, urban designs, and buildings in terms of 
greenhouse gas emissions and livability. There should also be a 
focus on educating professional planners to a higher standard 
by encouraging more widespread requirements for licensure of 
planners; providing greater NSF/HUD/DHS fellowship support for 
graduate students in planning, architecture, and civil 
engineering; and more regularly requesting National Academy-
style advice and analysis from experts in the field. The 
relevant expertise for addressing transportation-related 
greenhouse gas emissions should extend beyond the engineering-
oriented Transportation Research Board membership to include 
experts in land-use planning and urban design.
                                ------                                


     RESPONSE TO WRITTEN QUESTION OF SENATOR MENENDEZ FROM 
                     CHRISTOPHER CALBALDON

Q.1. Mayor Cabaldon, the Sacramento Blueprint and SB 375 
establish aggressive goals for reducing greenhouse gas 
emissions and energy consumption. How is it that your region 
was able to transform the way it planned its transportation 
future when so much of the country seems stuck in existing 
patterns? What can we learn from your experience and apply 
elsewhere?
A.1. There were two keys to our success. We used state-of-the-
art data and modeling tools to objectively analyze the impacts 
and trade-offs of different futures for the region, and we had 
a very aggressive, innovative citizen engagement process.
    Our commitment to developing first-rate, unbiased 
information created a great of credibility across the political 
spectrum. Examples of what we did include:

    --Housing market preference survey (co-funded and designed 
by development and business interests) to identify current 
preferences for higher density, mixed use, walkable 
neighborhood projects.

    --Long-range demographic forecast, in part so we could 
estimate how current market preferences might change in the 
future, especially with the fast growing aging population.

    --Development of parcel specific region-wide Geographic 
Information System (GIS) database, important for analyzing 
technical impacts and political acceptability of land use 
changes at the neighborhood level.

    --Expansion of regional travel model so that it could 
explicitly account for how changing land use patterns would 
influence travel behavior and air emissions (most standard 
models do a poor job of this because they are too coarse 
grained).

    --Development of a web-based version of the PLACE3S 
software (PLanning for Community Environment, Energy and 
Economic Sustainability) so that technically accurate modeling 
for the entire region could be conducted fast enough to use 
``live'' at small group tables of citizens in dozens of 
interactive community workshops.
    Our commitment to new methods of citizen engagement 
involved thousands of citizens, many of whom were new faces to 
on-going local land use politics and developed a high degree of 
consensus on the final Blueprint plan across the region. 
Examples of what we did include:

    --Used a full partnership with Valley Vision, a civic non-
governmental organization, to recruit participation in dozens 
of workshops.

    --Specifically recruited people for the workshops to 
represent a spectrum of citizens, housing advocates, business 
and property interests, members of the development industry, 
and affected public agencies.

    --Assigned participants to ensure a wide diversity of 
interests was present at each small group table.

    --Supported effective small group decision-making with 
trained facilitators and computer modeling at each table (using 
PLACE3S software described above).

    --Within the 22 cities and 6 counties who are members of 
SACOG actively involved all key parties, including elected 
officials, city managers/county executives, planning directors, 
and planning commissioners.

    --Conducted 1500 person regional conference to have 
citizens identify their preferred regional future scenario.

    --Conducted first-ever regional summit with all local 
government elected officials to make final changes to the draft 
preferred regional future scenario (the Blueprint).

    --Had endorsement for the final scenario from broad range 
of interests groups, including environmentalists, developers/
builders, chamber of commerce, architects and housing 
advocates.

    --Supported implementation of the Blueprint with grants, 
development of additional graphic and technical tools, and 
technical assistance to local governments and stakeholders.

Q.2. Mayor, the central point you repeat is the importance of 
increasing transit ridership. Some still seem to think that it 
is difficult to convince people to leave their car at home in 
favor of transit. Has that been your experience in West 
Sacramento?

A.2. Did not respond by publication deadline.
                                ------                                


  RESPONSE TO WRITTEN QUESTIONS OF SENATOR VITTER FROM RANDAL 
                            O'TOOLE

Q.1. Mr. O'Toole, can you think of a single public 
transportation system that has reduced greenhouse gas emissions 
over traditional automobiles?

A.1. No, public transit systems have not reduced greenhouse gas 
emissions anywhere in the United States for two reasons. First, 
despite tens of billions of dollars of annual subsidies to 
public transit--more than the total subsidies to highways even 
though highways carry close to 100 times as much travel as 
transit--transit's share of urban travel is declining almost 
everywhere in the country. While transit's share may have 
increased in some areas in 2007 and 2008 due to high fuel 
prices, the long-term trends are down and will no doubt remain 
negative as people adapt to higher fuel prices by buying more 
fuel-efficient cars.
    Second, transit itself produces huge amounts of greenhouse 
gas emissions. The average public transit bus produces far more 
emissions, per passenger mile, than the average car. The 
average rail transit line, such as the Washington MetroRail 
system, produces as much or more emissions than the average car 
if the electricity used to power the system is generated by 
burning fossil fuels (as it is for Washington MetroRail). Even 
where electric transit is powered by renewable energy sources, 
rail transit is almost always supported by buses whose 
emissions per passenger mile are high.
    The average passenger automobile emits about 0.54 pounds of 
CO<INF>2</INF> per passenger mile, and this is expected to 
decline to well under 0.4 pounds per passenger mile by 2025. As 
shown on page 14 of my Cato report, ``Does Rail Transit Save 
Energy or Reduce Greenhouse Gas Emissions?'' the transit 
systems in all but a handful of urban areas--New York, Atlanta, 
San Francisco, Portland, Boston, Chicago, and Cincinnati--emit 
more than 0.54 pounds of CO<INF>2</INF> per passenger mile.
    Transit systems in only three urban areas--New York, San 
Francisco, and Portland--emit less than 0.4 pounds of 
CO<INF>2</INF> per passenger mile. Yet even in these urban 
areas, we cannot say that transit has reduced greenhouse gas 
emissions because transit's share of travel is declining in 
each of them. In Portland, for example, the number of people 
who take transit to work declined between 2000 and 2007, while 
the number of people who drive to work increased by about 
75,000.
    While automobiles are getting more energy efficient, 
transit has been getting less energy efficient. As we build 
more rail lines into suburban areas that do not heavily use 
transit, we can expect transit's energy efficiency to decline 
even further, and that means that greenhouse gas emissions per 
passenger will increase.

Q.2. Mr. O'Toole, what do you think of the premise that brings 
us all here today--that if you build more public transit, we 
will as a nation reduce greenhouse gas emissions?

A.2. The data show that building more public transit will not 
reduce greenhouse gas emissions. First, construction itself 
releases large volumes of greenhouse gas emissions. Even if 
operating a new transit line could reduce greenhouse gas 
emissions, it would take many decades of savings to make up for 
the emissions released during construction.
    Second, except in places such as the Pacific Coast States 
where most electrical energy is generated from renewable 
sources, operating those public transit lines does not 
significantly save greenhouse gas emissions. If our goal is to 
reduce greenhouse gas emissions, building more transit lines is 
exactly the opposite of what we want to do.
    Even where most electrical energy comes from renewable 
sources, it makes more sense to invest in electric or plug-in 
hybrid cars, whose batteries can be recharged overnight when 
electrical demand is low, than in electric transit that will 
use power during the day when demand is high.
    Instead of building expensive new transit lines, we need to 
take a cue from the private bus industry. On a per-passenger-
mile basis, public transit buses are some of the worst 
generators of greenhouse gases. But private buses are the 
least, generating far less greenhouse gases per pound than 
almost any transit line. The difference is that private bus 
operators have an incentive to fill as many seats as possible, 
while public transit agencies are politically driven to serve 
every corner of their taxation districts even if few people in 
many parts of those districts ride transit.
    If we are serious about using transit to reduce greenhouse 
gas emissions, our best choice would be to privatize transit 
systems and allow the operators to serve the routes that will 
fill the most seats and do the most to minimize costs--both 
financial and environmental--per passenger mile.
                                ------                                


 RESPONSE TO WRITTEN QUESTIONS OF SENATOR MENENDEZ FROM ERNEST 
                           TOLLERSON

Q.1. Mr. Tollerson, we've heard about how the marketplace 
should dictate transit development. Did the MTA's Blue Ribbon 
Panel have members from the private sector on it? Can we create 
economic growth with such planning while still being 
sustainable?

A.1. Yes, the Blue Ribbon Commission on Sustainability and the 
MTA did have members of the private sector on it. The chair of 
the Commission, Jonathan F. P. Rose, is the president of 
Jonathan Rose Companies. The company is a real estate policy, 
planning, development and investment firm with projects worth 
$1.5 billion. The firm has been involved in developing 
sustainable communities nationwide. The firm's mixed-use 
development in Denver was awarded the Urban Land Institute's 
Award for Excellence. Currently, Jonathan Rose Companies has 
broken ground for the first-ever affordable and mixed-income 
residential development designed to LEED (Leadership in Energy 
and Environmental Design) Certification standards in East 
Harlem.
    The chair of the Commission's Facilities Working Group, 
Robert Fox, is a founder and partner in the architectural firm 
of Cook & Fox. Among the firm's marquee projects is the new 
Bank of America Tower at One Bryant Park in Manhattan. This 
skyscraper is considered one of the most efficient and 
ecologically friendly buildings in the world. It's the only 
skyscraper to achieve LEED platinum--the highest LEED rating.
    The other private-sector members of the MTA commission 
were: Anna-Marie Francello, the Executive Director of Regional 
Travel and Ecology at the UBS Investment Bank; Susan Metzger, 
the former owner of the multi-disciplinary environmental 
sciences and engineering consulting firm of Lawler, Matusky & 
Skelly Engineers, which was recently acquired by HDR, Inc. a 
full-service economics, financial and engineering firm; and 
Nancy Shevell, Vice President for Administration at New England 
Motor Freight Inc. and Shevell Group of Companies. Both Susan 
Metzger and Nancy Shevell are current members of the MTA Board 
of Directors.

Q.2. Can we create economic growth with such planning while 
still being sustainable?

A.2. Yes, economic growth and environmental sustainability are 
mutually compatible objectives. The pursuit of environment 
sustainability in the public transit sector will spur long-term 
economic growth in the form of new jobs and growth in GDP. The 
reverse is also true: economic growth in the form of green 
transit jobs and increases in GDP related to green transit 
policies will help metropolitan regions reduce their carbon 
footprints and give metro regions a major tool for meeting any 
interim and long-term greenhouse gas reductions goals that the 
Congress and White House set. The strategies and policies 
proposed by the MTA's Blue Ribbon Commission on Sustain ability 
and the MTA promote environmental sustainability and project 
the economic benefits of green transit operations and greening 
transit capital programs.
    The economic development benefits of green public transit 
were so important to the commission that the commissioners 
invited economist David Lewis to score and forecast the 
economic benefits of pursuing a comprehensive sustainability 
agenda at the MTA. David Lewis' section of the report, pages 8 
and 9, briefly summarize Transit's Four Green Economic Impacts, 
which are Avoiding Carbon Emissions, Managing Regional 
Congestion, Optimizing Land Use and Generating Higher Values.
    In particular, the fourth economic impact, Generating 
Higher Values, describes the positive impact that public 
transit has on the value of residential real estate. David 
Lewis also forecast that the stimulatory effect of green 
transit investments recommended by the commission would 
generate a possible yield of 105,500 net new jobs a year, 
employment income of $5.1 billion a year and regional economic 
output of $17 billion a year between 2010 and 2019.
    On pages 72 to 74 of the final report of the MTA 
commission, David Lewis summarizes the methodology for 
forecasting SROI, the Sustainable Return on Investment in a 
section on public transit's triple bottom line (TBL). The use 
of various SROI models is likely to grow as States, metro 
areas, communities and the Federal Government seek to evaluate 
and compare the likely impact of various green strategies.
    In addition, recently published studies reveal that the 
failure to achieve deep reductions in greenhouse gases (GHG) 
will result in overall costs from climate change that will be 
equal to the loss of between 5 percent to 20 percent of global 
GDP. This provides a clear example of the deep connection 
between environmental sustainability and economic viability. 
The commission's recommendations recognize the role of transit 
in promoting economic productivity and sustainability--and 
reducing exposure to losses from effects of climate change that 
cannot be reversed.
    In short, expanding transit networks in the major 
metropolitan regions of the United States, where 65 percent of 
Americans live and where three-fourths of the nation's GDP is 
generated, not only lowers carbon emissions, it demonstrably 
raises property values. It not only reduces dependence on 
fossil fuels but also allows for high-value businesses to 
concentrate in metropolitan areas.
    Obtaining these dual benefits of environmental 
sustainability and economic growth requires the collaboration 
among the three major sectors of U.S. society, the public 
sector--including communities, counties, cities, States, public 
benefit corporations like the MTA--the private sector and the 
independent sector (including CBOs, CDCs, EDCs, NGO's, 
foundations and other donors). These dual benefits, 
environmental sustainability and economic growth, are not 
likely to be achieved by a sole reliance on any one sector.
    Recent developments in transit-oriented development (TOD) 
in the MTA's 5,000-square-mile service territory make the need 
for collaboration among sectors abundantly clear. The MTA has 
been directly involved in planning such sustainable economic 
growth. Metro-North Railroad, one of two MTA commuter rail 
services in the region, worked with the city of Yonkers to 
rehabilitate the Metro-North station and the environs around 
the station. Metro-North's station improvements complemented 
Yonkers' waterfront development projects and assisted in the 
downtown revitalization efforts.
    As part of the station renovation, Metro-North built a 
corridor through the station's concourse, providing direct 
access to the Hudson River waterfront for residents, visitors 
and commuters. The new riverfront portal complemented the 
city's new riverfront esplanade. This collaborative effort 
attracted private developers to build a significant mixed-use 
residential, commercial and retail development plus a 
waterfront park at the station. This cluster of development 
projects, in turn, generated greater ridership volume at the 
Yonkers station.
    This collaborative effort between the city of Yonkers, 
Metro-North and a private developer resulted in:

  <bullet> Approximately 600 residential units;

  <bullet> 28,000 sq. ft. of office space; and

  <bullet> 17,000 sq. ft. of retail restaurant space.

Yonkers is also planning more private development near the 
station.
    The revitalization of Yonkers increased ridership on Metro-
North while decreasing automobile usage among the TOD 
residents. This translated into the following:

  <bullet> 40 percent increase in ridership at the Yonkers 
        Station; and

  <bullet> ess than 1 (0.89) car per household compared to 
        national average of 1.89.

There are other recent examples of private-public collaborative 
efforts in creating TOD in the MTA service territory. In 
Tarrytown, New York, a compact, mixed-use development was 
recently opened near the Metro-North Tarrytown station. This 
resulted in:

  <bullet> Approximately 240 residential units;

  <bullet> 65,000 sq. ft. of commercial space;

  <bullet> 15,000 sq. ft. of retail space.

Metro-North is a catalyst in a number of other TOD projects, 
including the Be in Beacon project and the Happening in 
Harrison project. The MTA's other commuter rail service, the 
Long Island Rail Road, is working with the Town of Brookhaven 
to develop a TOD zone around the LIRR's Ronkonkoma station.
    Multiple studies have shown the environmental benefits of 
TOD, in particular the reduction of vehicle-miles traveled. The 
Urban Land Institute recently published a study, ``Growing 
Cooler: The Evidence of Urban Development and Climate Change,'' 
which showed that mixed-use, compact development by transit 
stops is a key contributor to combating GHG emissions. The 
study warned that if sprawling development continues to fuel 
driving, the projected 48 percent increase in VMT between 2005 
and 2030 will overwhelm expected gains in vehicle fuel 
efficiency and low-carbon fuels. Even if the most stringent 
fuel-efficiency proposals are enacted, vehicle emissions would 
be 34 percent above the 1990 levels in 2030. Depending on 
several factors, from the mix of land uses to a pedestrian-
friendly design, TOD reduces driving from 20 percent to 40 
percent and more in some instances. Residents living in compact 
developments have the option of using public transit and are 
not restricted to automobiles only. With a range of 
transportation choices, these residents drive a third fewer 
miles than those in automobile-dependent areas. The MTA 
commission recognizes the need to develop and actively promote 
a TOD program.
    Evidence of the way in which environmental sustainability 
and economic growth are intertwined is visible in the MTA's 
involvement in clean, renewable energy. As the MTA pursues a 
variety of strategies for lowering its carbon emissions and for 
gaining access to renewable power, the MTA always looks for 
opportunities to incubate and support renewable and cutting-
edge energy entrepreneurs, industries and suppliers.
    Finally, the MTA is one of the New York City region's 
largest consumers of electricity, primarily for traction power 
for subways and commuter rail as well as a large consumer of 
fuel for a fleet of more than 6,000 buses. MTA NYCT has played 
an important role in the development of hybrid technology. In 
1998, MTA NYCT partnered with Orion bus and BAE Systems on 10 
diesel hybrid buses. After 6 years of in-service experience, 
MTA NYCT ordered 125 production hybrids. The experience was 
positive. In our hybrid fleet, we saw an average 30 percent 
increase in fuel economy compared to the conventional diesel 
buses those hybrids had replaced. We ordered 200 in 2004, 500 
in 2006, and 850 in 2008. We now have these buses in all 
boroughs with numerous duty cycles, and are monitoring the 
component life cycle data to inform future purchase decisions. 
The MTA has the largest diesel hybrid fleet in North America, 
and the MTA's efforts to build that fleet have helped to drive 
the market for diesel hybrid technology.

Q.3. The FTA has numerous programs under SAFETEA-LU. As we move 
forward with reauthorization, which programs will we have to 
strengthen so transit can be one of our tools to fight climate 
change? Do those programs need more resources, policy changes 
or both?

A.3. Both. Transit needs a combination of more resources and 
policy changes in order to unlock its true carbon-cutting 
potential. As the urgency for proven climate-change mitigation 
strategies increases, transit is, and should be, viewed as a 
major solution that can be deployed now on a national scale. 
The MTA recommends the following:

  <bullet> Create a robust state-of-good repair (SOGR) 
        program. Target the rehabilitation and preservation of 
        existing infrastructure investments in areas where the 
        environmental and economic benefits are the greatest. 
        The value of maintaining existing transit assets, which 
        have too often been neglected, is critical to making 
        progress in the fight against climate change. The 
        foundations of our existing transit systems, which are 
        already providing key greenhouse gas (GHG) reductions 
        in major metropolitan areas, must be adequately funded 
        and maintained. The Federal Transit Administration's 
        (FTA) recent Rail Modernization Study estimated the 
        SOGR backlog at the nation's seven largest rail transit 
        agencies to be roughly $50 billion. Two points made 
        recently by the FTA administrator are worth keeping in 
        mind. First, deferred maintenance items, if deferred 
        long enough or left undetected, can become critical 
        safety risks. Second, the issues of the conditions of 
        our transit infrastructure and the safety of our 
        transit systems are inextricably linked.
    Therefore, the Congress should establish a separate SOGR 
investment fund with an expedited approval and award process. 
It should be noted that transit investments in densely 
developed areas with a high transit-mode share serve to 
maintain existing densities and ensure riders do not switch to 
relying on automobiles. SOGR investments also encourage more 
public and private development, creating opportunities to 
increase densities near quality public transit.

  <bullet> Encourage intermodal projects to make transit a 
        more viable option thereby reducing congestion and 
        vehicle miles traveled (VMT). Provide incentives for 
        the planning and development of regional transportation 
        services which connect multiple modes, jurisdictions 
        and systems. The provision of better linkages and more 
        seamless travel options encourages transit use and 
        reduces GHG emissions. The development of a single 
        regulatory process for FTA and Federal Highway 
        Administration (FHWA) to follow for multi-modal 
        projects will allow for faster implementation of 
        projects that provide connections between modes and 
        highway projects that include transit components. 
        Funding is also needed for improving access and 
        connections to transit, especially in areas with 
        existing low-density development. By improving feeder 
        systems (buses, shuttles, trolleys, ferries, vans, 
        etc.) to rail stations as well as distributor systems 
        from stations to employment centers, metropolitan 
        regions will be able to address the ``last mile'' 
        problem. All aspects of improving transit connections 
        should be considered, including: types of vehicles; 
        scheduling; fares; the provision of real-time customer 
        information and way-finding signage; the condition and 
        quality of bus stops, shelters, and stations; and car-
        sharing and carpooling systems. In addition, this 
        program should include local projects that improve 
        transit and station access through sidewalks, ``smart 
        streets,'' pedestrian ways, bike lanes and paths, bike 
        parking, park-and-ride lots, and roadway improvements.

  <bullet> Streamline the project approval process. In order 
        for communities to realize transit's climate-
        stabilization benefits, projects must be approved and 
        completed more quickly. Procedural changes to the 
        project-development process would decrease approval-
        related delays. That in turn will speed project 
        delivery and reduce costs. New programs and policies 
        that promote better coordination of transportation 
        decisions and investments with land use, housing, 
        energy and environment investments should be 
        implemented--and this new level of coordinated 
        decisionmaking and investments should be accompanied by 
        a streamlining of Federal processes.

  <bullet> Authorize additional resources for transit. 
        Fundamentally, there is a need for increased levels of 
        Federal investment in transit. Expanding transit 
        capacity and maintaining and upgrading existing transit 
        networks--including station-access improvements--is a 
        proven GHG reduction strategy. Additional resources and 
        the streamlining of Federal processes can quickly 
        advance implementation of Bus Rapid Transit (BRT) and 
        Light Rail Transit (LRT) lines in many metropolitan 
        areas around the nation. Federal investment is critical 
        in and of itself, but increased Federal investment 
        guarantees also attract much needed State, local and 
        private sector investment in transit and Transit-
        Oriented Developments (TODs). TODs have the power to 
        reduce GHG emissions by transforming the way in which 
        we live and work by reducing car trips, reducing 
        distances between activities and encouraging transit 
        use, biking and walking.

  <bullet> Encourage and broaden experimentation with pricing 
        programs and policies. Pricing strategies and parking 
        policies that increase the cost of single-occupancy-
        vehicle (SOV) travel should be experimented with and 
        viewed as complimentary to transit. Persuading people 
        to switch from driving their cars to transit will in 
        all likelihood take price signals. Pricing programs 
        should also be considered additional revenue sources, 
        which can be used to finance higher levels of transit 
        investment. Congestion pricing and public 
        transportation generate mutual benefits--road pricing 
        yields benefits for transit by improving public 
        transportation speeds and the reliability of public 
        transportation service, increasing public 
        transportation ridership, lowering costs for public 
        transportation providers, and expanding the source of 
        revenue that may be used for public transportation.

    Public transportation benefits road pricing by absorbing 
commuters who shift their travel from automobile to bus or 
rail, according to a FHWA primer, entitled Transit and 
Congestion Pricing. This primer succinctly lays out the way in 
which road pricing and transit work well together.

  <bullet> Provide funding for implementation of new green 
        technologies and adherence to green standards embraced 
        by the transit sector in the United States. Transit 
        agencies should be encouraged to invest in 
        sustainability improvements that will make their 
        operations more energy efficient. Greening transit 
        operations will require the deployment of new 
        technologies, including: regenerative braking, aluminum 
        third rail, subway car light-weighting, battery 
        technologies, clean fuels and the transformation of 
        transit support facilities (bus depots, train yards and 
        stations) into high-performance, lower-carbon 
        facilities; using LEED or LEED-like standards for new 
        construction and major renovation of facilities can 
        accelerate the greening power and greening potential of 
        transit. The American Public Transportation Association 
        (APTA) and its members have had discussions about 
        drafting green transit standards for transit agencies; 
        those standards would cover many areas, including 
        facility design and vehicle types.

  <bullet> Transforming existing transit infrastructure into 
        lower-carbon transit services. In older metropolitan 
        areas there is an opportunity to create lower-carbon 
        transit services based on adaptive re-use of existing 
        transit infrastructure. The Long Island Rail Road's 
        East End Shuttle service is a case in point. It ran 
        shorter shuttle trains more frequently between Speonk 
        and Montauk during construction work on a county road 
        in 2007 and 2008. This so-called scoot service provided 
        an improved suburb-to-suburb transit option. In light 
        of the scoot service's success, there are probably many 
        opportunities to provide similar transit services on 
        underutilized rail right of ways in other parts of the 
        MTA region and in many metropolitan regions around the 
        nation.

</pre></body></html>
